<html>
<title> - ATTENTION DEFICIT/HYPERACTIVITY DISORDER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  ATTENTION DEFICIT/HYPERACTIVITY DISORDER--ARE WE OVERMEDICATING OUR 
                               CHILDREN?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2002

                               __________

                           Serial No. 107-141

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform







                           U.S. GOVERNMENT PRINTING OFFICE
83-516                          WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2002...............................     1
Statement of:
    Nakamura, Richard K., Acting Director, National Institute of 
      Mental Health..............................................    63
    Ross, E. Clarke, chief executive officer of CHADD--Children 
      and Adults with Attention Deficit/Hyperactivity Disorder, 
      Landover, MD; and David Fassler, M.D., representative, 
      American Psychiatric Association, and American Academy of 
      Child and Adolescent Psychiatry, Washington, DC............    92
    Weathers, Patricia, president, Parents for Label and Drug 
      Free Education; Mary Ann Block, D.O., author and medical 
      director, the Block Center; Lisa Marie Presley, national 
      spokesperson, Citizens' Commission on Human Rights; and 
      Bruce Wiseman, U.S. president, Citizen's Commission on 
      Human Rights...............................................    24
Letters, statements, etc., submitted for the record by:
    Block, Mary Ann, D.O., author and medical director, the Block 
      Center, prepared statement of..............................    31
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     5
    Fassler, David, M.D., representative, American Psychiatric 
      Association, and American Academy of Child and Adolescent 
      Psychiatry, Washington, DC, prepared statement of..........   115
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................   136
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   135
    Nakamura, Richard K., Acting Director, National Institute of 
      Mental Health, prepared statement of.......................    67
    Presley, Lisa Marie, national spokesperson, Citizens' 
      Commission on Human Rights, prepared statement of..........    36
    Ross, E. Clarke, chief executive officer of CHADD--Children 
      and Adults with Attention Deficit/Hyperactivity Disorder, 
      Landover, MD, prepared statement of........................    96
    Roukema, Hon. Marge, a Representative in Congress from the 
      State of New Jersey, prepared statement of.................   140
    Watson, Hon. Diane E. Watson, a Representative in Congress 
      from the State of California, prepared statement of........    17
    Weathers, Patricia, president, Parents for Label and Drug 
      Free Education, prepared statement of......................    26
    Wiseman, Bruce, U.S. president, Citizen's Commission on Human 
      Rights, prepared statement of..............................    42


  ATTENTION DEFICIT/HYPERACTIVITY DISORDER--ARE WE OVERMEDICATING OUR 
                               CHILDREN?

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:28 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Horn, 
Souder, LaTourette, JoAnn Davis of Virginia, Weldon, Putnam, 
Duncan, Cummings, and Watson.
    Staff present: Kevin Binger, staff director; Chad Bungard, 
John Callendar, Jason Foster, Randall Kaplan, and Matt Rupp, 
counsels; S. Elizabeth Clay and Gil Macklin, professional staff 
members; Blain Rethmeier, communications director; Allyson 
Blandford, assistant to chief counsel; Robert A. Briggs, chief 
clerk; Robin Butler, office manager; Joshua E. Gillespie, 
deputy chief clerk; Michael Layman and Susie Schulte, 
legislative assistants; Nicholis Mutton, deputy communications 
director; Leneal Scott, computer systems manager; Mindi Walker, 
staff assistant; Sarah Despres, minority counsel; Ellen Rayner, 
minority chief clerk; and Jean Gosa and Earley Green, minority 
assistant clerks.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record. 
Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    Today we're going to be discussing a very important issue 
that affects many, many children in the United States. As all 
of us know, our children are our future. I doubt there's a 
single Member of Congress that doesn't feel strongly that we 
need to do our dead level best to protect and improve the 
health and well-being of the children of this Nation.
    Today we're going to talk about a group of symptoms known 
as ``attention disorders.'' In the last two decades, we've 
heard more and more attention about deficit disorders, ADD, and 
attention deficit hyperactive disorder, ADHD.
    The most common treatment for this disorder is a drug 
called Ritalin. This drug is being given to more and more 
children in this country. It has become very controversial. 
There have been a 500 percent increase in the use of Ritalin in 
the United States since 1990, a 500 percent increase. It is 
estimated that 4 to 6 million children in the United States 
take Ritalin every single day.
    On one side of this issue we're going to hear from the 
associations of psychiatrists and a parents' organization known 
as ``Children and Adults with Attention Deficit/Hyperactivity 
Disorder, or CHADD. They believe that 13 percent of the U.S. 
population, adults and children, suffer from an attention 
disorder, and that it should be treated with medication.
    At the other end of the discussion is the Citizen's 
Commission for Human Rights. They challenge the legitimacy of 
calling ADHD a neurobiological disorder. They raise serious 
questions about giving strong medications to young children.
    Also in the discussion are concerned parents.
    Imagine being a parent of a young child and receiving a 
note from your school instructing you to take your child to 
their pediatrician for evaluation. In this note from the school 
there's a checklist for you to take to the doctor. The school 
officials have diagnosed your child as possibly having ADHD. 
These are the teachers and the school officials. They make this 
diagnosis because your child makes careless mistakes on 
homework, does not follow through on instructions, fails to 
finish school work, has difficulty organizing tasks, loses 
things, and is forgetful in daily activities. That sounds like 
me when I was in grade school. I did not take Ritalin and I 
became a Congressman. [Laughter and applause.]
    When you take your child to your doctor, instead of blood 
tests and a thorough medical evaluation, you have a 
conversation with the doctor about the school's checklist, and 
you leave a few minutes later with a prescription for your 
young child for a psychotropic drug.
    Did the doctor test your child for a thyroid disorder? Did 
your doctor test your child for a heavy metal toxicity? Did 
your doctor talk to you about your child's allergies? Did your 
doctor even mention nutrition or possible food sensitivities? 
Did your doctor ask if your child's IQ had been tested and if 
he was gifted? Probably not.
    We all know that prescription drugs continue to command a 
greater percentage of the overall health care dollar. According 
to the Department of Health and Human Services, prescription 
drugs accounted for 9 percent of all U.S. health care 
expenditures in fiscal year 2001. This is a 14.7 percent 
increase in 1 year.
    Ritalin, as you know, is classified as a Schedule II 
stimulant under the Federal Controlled Substances Act. In order 
for a drug to be classified as a Schedule II, it must meet 
three criteria:
    One, it has to have a high potential for abuse; two, it has 
to have a currently accepted medical use in treatment in the 
United States; and, three, it has to show that abuse may lead 
to severe psychological or physical dependence.
    This is a Schedule II drug, and this is the definition.
    Some of the things we've heard about Ritalin cause me to 
have some concerns, and I'd like to hear from all of our 
witnesses today about those issues. The ``experts'' tell us 
that Ritalin is a ``mild stimulant.'' However, research 
published in 2001 in the ``Journal of the American Medical 
Association'' showed that Ritalin was a more potent transport 
inhibitor than cocaine. This isn't me saying this. This was in 
the ``Journal of the American Medical Association.'' It said 
that Ritalin was a more potent transport inhibitor than 
cocaine. The big difference appears to be the time it takes for 
the drug to reach the brain. Inhaled or injected cocaine hits 
the brain in seconds, while pills of Ritalin normally consumed 
take about an hour to reach the brain. Like cocaine, chronic 
use of Ritalin produces psychomotor stimulant toxicity, 
including aggression, agitation, disruption of food intake, 
weight loss, stereotypic movements, and death.
    There have been only two large epidemiological studies on 
the long-term dopamine effects of taking Ritalin for years. One 
study found more drug addiction in children with ADHD who took 
Ritalin compared with children with ADHD who took no drug, 
while the other study shows the opposite result, so they are 
inconclusive at this moment.
    The question that remains to be answered, according to the 
authors of this study, is whether the chronic use of Ritalin 
will make someone more vulnerable to decreased dopamine brain 
activity, as cocaine does, thus putting them at risk for drug 
addiction.
    Even more disturbing than the prescribing of Ritalin to 
school-age children is a trend to prescribe this medication to 
preschoolers. A study published in the ``Journal of the 
American Medical Association'' in 2000 offered some key 
insights into this dangerous new trend. Of 233 Michigan 
Medicaid enrollees younger than 4 years of age with a diagnosis 
of ADHD, 57 percent received at least one psychotropic 
medication to treat the condition during a 15-month period in 
1995 to 1996. Ritalin and Clonidine were prescribed most often.
    Additionally, the authors found that in the midwestern 
States' Medicaid population there was a threefold increase in 
total prescribing of stimulants between 1991 and 1995--a 300 
percent increase. There was a threefold increase in prescribing 
Ritalin, a 28-fold increase in prescribing Clonidine, and a 
2.2fold increase in prescribing of antidepressants. This is 
children between the ages of 2 and 4 years old.
    These are trends that I think we ought to be concerned 
about. Is it safe to give these drugs to very young children? 
What will the long-term effects be? Are children being 
diagnosed correctly? I hope we can shed some light on all of 
these issues today.
    In concluding, let me just say over the last 4 years this 
committee has looked at numerous health issues. We've looked at 
the role of dietary supplements, nutrition, and physical 
activity in improving health. We've looked at the role of 
complementary and alternative medicine in our health care 
system. We've looked at pharmaceutical influence on Advisory 
Committees at the Department of Health and Human Services. And 
we've looked at the possible relationship between childhood 
vaccines and the autism epidemic.
    It is obvious to me that we can no longer ignore that our 
health care system is in need of a major overhaul and attitude 
change. We have a generation of doctors who have not been 
trained in nutrition. We have statistics that show that 85 
percent of the illnesses Americans face are related to 
lifestyle. We have camps of conventional doctors who are 
trained to suppress symptoms through drugs, and camps of 
complementary and alternative medical professionals, including 
doctors, who are trained to look at the whole person and their 
environment. It's time that we put the labels of conventional 
and alternative aside and think about an integral approach, a 
complete approach to care. We owe it to all of us, but 
especially our children.
    I'm pleased that we have such a stellar list of witnesses 
today. Mr. Neil Bush, the brother of the President, was going 
to be here with us, but unfortunately he could not be, so what 
we have done is we have a tape of an interview that was 
conducted with Mr. Bush that we will show at the outset of our 
hearing before we hear from our witnesses. As everybody knows, 
he is not only the brother of the President, but he is the CEO 
of Ignite Learning and the son and brother of two Presidents 
and was supposed to be here, but unfortunately he couldn't. He 
did have a family experience with a misdiagnosis of ADHD.
    Ms. Lisa Marie Presley--I'm sure everybody knows who Ms. 
Presley is. She's not only a very talented young lady and a 
very attractive young lady, she's the daughter of Elvis Presley 
and his lovely wife, and she's here today to testify, and we're 
looking forward to her testimony. She's a concerned mother and 
the international spokesperson for the Citizen's Commission on 
Human Rights.
    Mrs. Patti Weathers, who is here with us--we're glad to 
have you--she will share her family's story about a school 
trying to force medication as a condition of school 
participation.
    Dr. Mary Ann Block, the author of ``No More ADHD'' is here.
    We appreciate your being here, as well.
    And, of course, we have Mr. Wiseman, who has been active in 
this issue for a long time.
    We appreciate your attendance, as well, Mr. Wiseman.
    Mr. Wiseman. Thank you.
    Mr. Burton. I want to thank all of our witnesses for being 
here to day. I look forward to your testimony. The hearing 
record will remain open until October 10th.
    Mr. Waxman is not here at the present time, so I will now 
yield to the distinguished gentleman from New York, my 
colleague, Mr. Gilman.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.001
    
    [GRAPHIC] [TIFF OMITTED] 83516.002
    
    [GRAPHIC] [TIFF OMITTED] 83516.003
    
    [GRAPHIC] [TIFF OMITTED] 83516.004
    
    [GRAPHIC] [TIFF OMITTED] 83516.005
    
    [GRAPHIC] [TIFF OMITTED] 83516.006
    
    [GRAPHIC] [TIFF OMITTED] 83516.007
    
    [GRAPHIC] [TIFF OMITTED] 83516.008
    
    [GRAPHIC] [TIFF OMITTED] 83516.009
    
    [GRAPHIC] [TIFF OMITTED] 83516.010
    
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank 
Chairman Burton for holding this important hearing to examine 
the issue of medicating school children and the treatment of 
attention deficit hyperactive disorder.
    As a congressional Member who has long been interested in 
the ongoing war on illicit drugs, I'm surprised by the 
extensiveness of the use of controlled substances such as 
Ritalin, with a high potential for abuse and the propensity for 
its dependence, to treat psychiatric disorders of children. 
This issue is surrounded by a substantial controversy, a debate 
that we fully expect to be highlighted by today's witnesses.
    While we recognize the merits of the positions argued by 
each side, my concerns lie in another area. I don't doubt that 
there are many children with genuine illnesses and disorders 
that could benefit from a treatment regime involving Ritalin 
and similar drugs. I am concerned, however, with a number of 
other issues. The first of these is the trend toward treating 
younger and younger children with these dependent drugs. 
Ritalin is generally not recommended for children under age 6; 
yet, there was a threefold increase in its prescription for 
children aged 2 to 4 between 1991 and 1995.
    Also of concern is that parents are being pressured into 
having their children take these drugs when a diagnosis is made 
by a teacher or other school official and not by any medical 
professional. As a result, the potential for abuse is enormous. 
Educators want conformity in the classroom, but the desire for 
order needs to be balanced against the health of the children.
    The heavy advertising and the extensive lobbying on school 
districts by drug companies for these products is very 
distressing. The decisions involving treatment need to be made 
by medical personnel who know the individual patient and not by 
someone with some financial stake in the system.
    Moreover, we've not seen any evidence that suggests the 
medical profession has any significant knowledge about the 
long-term effects of these drugs. Given that this is a 
relatively recent phenomenon, it is possible that long-term 
studies have not been undertaken. If that's the case, we could 
be setting ourselves up for a potential disaster down the road.
    Once again, Mr. Chairman, thank you for holding this 
important hearing this morning. I look forward to the testimony 
of our witnesses.
    Mr. Burton. Thank you, Mr. Gilman.
    Ms. Watson, do you have an opening statement?
    Ms. Watson. Yes, sir.
    Mr. Burton. Ms. Watson, you are recognized.
    Ms. Watson. I want to thank you, Mr. Chairman, and I have a 
few observations I'd like to share based on an experience while 
I was teaching and as a school psychologist.
    Although fidgeting and not paying attention are normal and 
common childhood behaviors, a diagnosis of ADHD may be required 
for children in whom frequent behavior produces persistent 
dysfunctions. The challenge is to evaluate, inform the parents, 
and consider the alternatives before choosing an invasive and 
artificial drug treatment.
    An adequate diagnostic evaluation requires histories to be 
taken from multiple sources--from the parents, from children, 
from teachers, and from others that are associated with the 
child; a medical evaluation of general and neurological health; 
a full cognitive assessment, including school history, use of 
parent and teacher rating scales, and all necessary adjunct 
evaluation, such as an assessment of speech and language 
patterns, etc. These evaluations take time and require multiple 
clinical skills. Regrettably, there's a lack of appropriate 
trained professionals and monetary resources in the current 
school systems.
    As a school psychologist in Los Angeles, for every 10 
students that I worked with, there were approximately 4 or 
maybe even 5 on Ritalin. It was very frustrating to see many of 
the medicated children completely numb to stimuli. In many 
cases they were almost like robots.
    Drugs should not be overly prescribed or seen as the only 
solution to these problems. The American Academy of Pediatrics 
published a policy statement in 1996 on the use of medication 
for children with attentional disorders, concluding that the 
use of medication should not be considered the complete 
treatment program for a child with ADHD and should be 
prescribed only after a careful evaluation.
    Because stimulants are also drugs of abuse, and because 
children with ADHD are at an increased risk of substance abuse 
disorder, I have concerns about the potential for the abuse of 
stimulants by children taking the medication or diversions of 
drugs to others. Just yesterday I read in the ``Washington 
Post'' sports Section that the Hall of Fame Pittsburgh Steeler, 
Mike Webster, pleaded no contest in September 1999, to forging 
prescriptions to obtain Ritalin.
    I finally say that this point has to be made, and it goes 
to the fact that this great athlete is probably someone who 
early on showed hyperactivity and probably because he was bored 
in class, or whatever the circumstances might have been, but he 
now has an addiction that I think in some ways could be equated 
with the use of cocaine, which is so prevalent in my District 
and in the school district that I represent.
    So I am very, very concerned that we are bringing our 
children up in a drug culture, and you can't turn on the 
television or the radio or read a newspaper that we're not 
pushing something to wake you up, put you to sleep, 1-2-3 take 
this, and so children are surrounded by this culture. We need 
not have this particular effect in our schools.
    So, Mr. Chairman, thank you very much for holding this 
hearing. I look forward to hearing the presenters.
    Mr. Burton. Thank you very much, Doctor. We appreciate 
that.
    [The prepared statement of Hon. Diane E. Watson follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.011
    
    [GRAPHIC] [TIFF OMITTED] 83516.012
    
    Mr. Burton. Mr. Horn.
    Mr. Horn. Mr. Chairman, I thank you for this further series 
of where there has been misuse of pharmaceuticals. I agree 
completely with my colleague, Mr. Gilman. We have been all over 
Europe and everywhere else to see that drugs, and when it's 
used for small children and they have no say about it and when 
it's wrong, we should make sure that doctors are properly put 
together, have what type of either adolescents or the others.
    So I would commend you and would hope that we could get 
soon to the witnesses, since they are outstanding.
    Mr. Burton. Thank you, Mr. Horn.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing. I bring a very interesting 
perspective to this hearing in that, as a young African 
American boy in South Baltimore, I know that what happened to a 
lot of us, because we were actually pushed into special 
education, we were given all kinds of drugs, and they said that 
we were hyperactive, and told that, you know, our hyperactivity 
could not be controlled. But what they failed to understand in 
this poor neighborhood in South Baltimore was that we didn't 
have the playgrounds. We didn't have them. We played on glass, 
G-L-A-S-S. We didn't have the leagues, the baseball leagues. 
That's stuff that little boys would normally do to get that 
energy out of them.
    And so what happened, as is happening today in my District, 
are little children are being drugged to keep them stable, so 
they say, so that they can learn.
    I agree with Congresswoman Watkins that we've got a 
situation where we have to bring this whole situation under 
control.
    Mr. Chairman, I applaud you for bringing attention to it, 
because it is a very serious thing.
    Just today I was listening to one of our national stations 
and they were talking about how there are over 1 million 
African American men in prison, 1 million. There are more 
African American men in prison than there are in college. You 
have to wonder how many of them may have started off with folks 
saying that, you know, ``There's something wrong with you.''
    We have to understand, when you tell a child that there's 
something wrong with them, it goes with them until they die, 
and it's not--I've often said it's not the deed, it's the 
memory that haunts folks.
    And so I think that perhaps--I don't know what our 
witnesses will touch on this. I think that perhaps we 
categorize children at an early age and we misdiagnose them and 
then we put them on a train on a track that leads to nowhere, 
and so that's why, Mr. Chairman, I'm glad we're exploring this. 
I think that it took a lot of foresight on your part to even 
open up this door so that we could peek in, because I can tell 
you that I know of a lot of children right now who are sitting 
in classrooms and they have been drugged and they don't know--
they're not sure what's going on with them. All they know is 
that they have been labeled.
    And, last but not least, Mr. Chairman, let me say this. In 
our society today too often what we do is we look at a child's 
behavior and say to ourselves that that behavior is a deficit 
as opposed to an asset. I can recall as a young boy, one of the 
reasons why they put me in special education and put me to the 
side is because they said I talked too much. They said, ``You 
talk too much.'' I'm so glad that there were some people that 
saw it as an asset, did not drug me to quiet me, and said to 
use this asset that God has given you so that you can help to 
bring benefit to the rest of society.
    And so for those reasons I take it very personal, what 
we're doing here today, because there are so many people that 
don't get off of that train leading to nowhere.
    With that, Mr. Chairman, I yield back.
    Mr. Burton. Thank you, Mr. Cummings.
    I'd just like to say that your testimony parallels some of 
the things I heard about me when I was in school. I guess I 
still talk too much sometimes.
    Let's see. Mrs. Davis.
    Mrs. JoAnn Davis of Virginia. Thank you, Mr. Chairman. I 
appreciate your holding this hearing.
    I want to bring an entirely different perspective to what 
has been said. I'm the Mom of an ADHD son who is now 21. I 
would have given anything back when he was 6 or 7 if someone 
from the school would have sent a note home and said, ``Have 
your son tested or checked out.'' Instead, we went for several 
years thinking we were bad parents, something is wrong. We 
could not control our child. We didn't know what was wrong with 
him. And it was at the end of his second grade when his teacher 
said, ``He's below grade level,'' and she passed him because 
she just didn't want to deal with him any more. It was a 
struggle at home. It was a strain on our marriage. This is our 
younger son. We just couldn't handle him. We couldn't control 
him.
    During that summer, I happened to be talking to a lady who 
asked me had I ever had my son tested for attention deficit 
hyperactivity disorder, which I'd never heard of. I took him to 
my pediatrician, who sent me to a psychologist. We wrestled 
with putting our son on Ritalin. I did not want to medicate my 
child. My husband didn't want to medicate him. We wrestled with 
that a great deal.
    The first day of school in third grade he was sent to the 
principal's office for acting up. That went on for a week. It 
wasn't acting up like bad behavior, it was he just couldn't 
control himself. And, to make a long story short, the second 
week we put him on Ritalin. We did not tell the school. Back 
then the teachers in our area were not trained on attention 
deficit hyperactivity disorder. They didn't know much about it.
    At the end of the first 9 weeks when the report card came 
out--keep in mind, this is the young man they wanted to hold 
back in second grade, or said he was below grade level--we 
received a call to come to the school. I went to the school, 
met the principal, the reading specialist, and the third grade 
teacher, who said our son was a brilliant, gifted child and 
wanted to put him in the gifted learning class. He made 
straight A's.
    We then told them we did not want him in the gifted class. 
We explained the Ritalin.
    I will tell you that Ritalin was the savior to us for our 
son. We tried everything. We tried the diet. We tried the 
behavior changes. We tried everything before we succumbed to 
the Ritalin.
    We didn't keep him on it during the holidays. We didn't 
keep him on it during the summer. He did great. The 
psychologist said it was all right not to have him on it during 
the summer and during the holidays. He did great.
    When he was in high school he opted to go off the Ritalin. 
We've had no trouble with our son. He's not had a problem with 
drugs. In fact, just the opposite. We explained to him that 
with the Ritalin if he were to ever try drugs that it could 
totally harm him.
    I believe that in this country we have a tendency to swing 
from one end to the other. I do believe we've swung to the 
other. We've gone from when people didn't know about Ritalin 
and attention deficit disorder to now any time you have a child 
who is active at all we put them on Ritalin.
    I would not want to see the children going on Ritalin at 
age 2, 3, 4, 5. It was a hard decision for us at 8 to put our 
son on Ritalin. I do believe that in some cases Ritalin is what 
helps.
    One thing we explained--and I don't mean to take up too 
much time, but one thing we explained to our son is that the 
Ritalin didn't make him smart. It didn't make him get the A's. 
It just helped him to concentrate to be able to use the 
abilities that he already had.
    I do think there are children and parents who will need to 
put their children on Ritalin, but I don't think it is anywhere 
near the number of kids that I see on Ritalin today.
    I appreciate your holding this hearing, and I hope and pray 
that before parents put their children on Ritalin they will 
have them tested in every respect, they will talk it out with 
everyone before they do it, and that they know it would just be 
the last resort. For us it was a lifesaver. He's 21. He's doing 
great. He's not on Ritalin, hasn't ben on it since 10th grade, 
but it was a lifesaver, Mr. Chairman. So I would hope we 
wouldn't outlaw it altogether, but that we would take a serious 
check on our conscience before we put our kids on the Ritalin.
    I thank you, Mr. Chairman.
    Mr. Burton. Thank you very much, Mrs. Davis.
    Dr. Weldon.
    Dr. Weldon. Mr. Chairman, I want to commend you for holding 
this hearing and just mention that you are taking us into a 
very complicated but very, very important arena. I'm very, very 
appreciative of the lady from Virginia's testimony.
    My perception is that Ritalin is, to a certain degree, a 
victim of its own success. It has helped a lot of children, but 
there are many children who are being placed on it 
unnecessarily.
    I think there's a broader issue that I would like to see 
the committee address, though I expect we will not be able to 
in the confines of the amount of time remaining on the 
calendar, and that is: is there some other underlying process 
going on to account for the larger and larger number of kids 
that are being labeled with this behavioral and learning 
disorders? I'm specifically talking about something in the 
environment, something in the food that could be playing a 
role. Vaccines is another thing worth considering.
    Again, thank you very much for convening this hearing. I'm 
looking forward to hearing the testimony of our witnesses, so I 
yield back.
    Mr. Burton. If we don't get to those other issues you 
referred to, Dr. Weldon, we'll try to hopefully do that in the 
coming year.
    Judge Duncan.
    Mr. Duncan. Mr. Chairman, first of all I want to thank you 
and the staff for calling this hearing. I don't believe there's 
any committee in the Congress that has held hearings on a wider 
variety of really important topics than this committee has 
under your chairmanship.
    I listened very closely and intently, as all of us did, to 
Mrs. Davis' statement. I can tell you that I remember having 
lunch 1 day in the House dining room with a family that told me 
almost the exact same story. And I have no doubt that there are 
some children in this country, many children, perhaps, in this 
country that have benefited from Ritalin, but I also have 
spoken on the floor of the House twice about this subject 
because I believe that this drug--I have to believe that this 
drug is way over-prescribed in this country, and I believe it 
is all really about money.
    I mentioned in one of my floor statements that I'd read an 
article in 1998 by the former second-ranking official of the 
Drug Enforcement Administration who had retired to Knoxville, 
and he wrote an article in the ``Knoxville News Sentinel'' and 
said that Ritalin was being prescribed in the United States six 
times more than in any other industrialized nation in the 
world. And he said in this article that Ritalin had the same 
properties basically as some of the most addictive drugs there 
are.
    I read in 1999 in ``Time Magazine'' that production of 
Ritalin had increased seven-fold, seven times, in the past 8 
years, and that 90 percent of it was being consumed in the 
United States. And ``Time Magazine'' said in that article, 
``The growing availability of the drug raises the fear of the 
abuse. More teenagers try Ritalin by grinding it up and 
snorting it for $5 a pill than get it by prescription.''
    Then I read in ``Insight Magazine,'' which has had several 
articles about this, that almost every one of the teenage 
shooters that we've read about in recent years have been boys 
who were at the time or had recently been taking Ritalin or 
other similar mind-altering drugs.
    Late last year the same magazine, ``Insight Magazine,'' had 
an article which said, ``Thirty years ago the World Health 
Organization concluded that Ritalin was pharmacologically 
similar to cocaine in the pattern of abuse it fostered, and 
cited as a Schedule II drug, the most addictive in medical 
use.'' The Department of Justice also cited Ritalin as a 
controlled substance, as a Schedule II drug under the 
Controlled Substances Act. And the Drug Enforcement 
Administration warned that ``Ritalin substitutes for cocaine 
and deamphetamine in a number of behavioral paradigms.''
    I also read one study that said that almost all Ritalin was 
being prescribed to young boys who were the children of very 
successful parents, both of whom were working full time outside 
of the house. Now, I say again I know that there are people for 
whom Ritalin has been a lifesaving drug, but I also know that I 
think--and I have a family that has many teachers in it, but I 
know sometimes that there are some poor teachers who I think 
have recommended Ritalin just because they personally couldn't 
properly handle a young boy that was being what we used to say 
``he's all boy. He's very, very active.''
    I have known personally two or three of these young boys 
that have been put on Ritalin, and they've appeared to me to be 
in zombie-like states.
    So I think we need to look very closely at this. I don't 
believe we need to outlaw Ritalin, but I believe it needs to be 
greatly, greatly reduced in its usage.
    I'll say again I believe it is being over-prescribed in 
this country just because of the profit factor, the money 
that's out there that the drug companies want to make.
    Thank you very much.
    Mr. Burton. What I'd like to do is take the committee to 
the 5-minute mark. We have almost 12 minutes left on the clock. 
Then we will have to recess for three votes. I would urge all 
Members to come back so we can hear our witnesses if it is at 
all possible.
    With that, I'd like to have our witnesses stand and be 
sworn in. Would you please rise and raise your right hands.
    Do you swear to tell the truth, the whole truth, and 
nothing but the truth, so help you God?
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    I'd like to start off by showing a tape of Neil Bush, who 
could not be with us today, because he had some things he 
wanted to say and we'd like to show real quickly. So would we 
put our attention on the monitors.
    [Videotape played.]
    Mr. Burton. I want to thank ABC for providing that tape to 
us. We are now at a point where we have to recess. Please 
forgive me, you on the panel and everybody in the audience. 
We'll get back here just as quickly as possible.
    We have three votes. The first one will be through in about 
10 minutes, and then we have two 5-minute votes, so we'll be 
back here in about 25 minutes. So get a cup of coffee or a 
glass of water and forgive us for having to recess. We'll be 
right back.
    We stand in recess to the call of the gavel.
    [Recess.]
    Mr. Burton. The meeting will once again come to order.
    There will be other Members coming back besides me and Mrs. 
Davis, but we just had votes on the floor and we rushed back, 
so they will be wandering in. Those things happen.
    Before we start with the panel--who are on our way out, as 
I understand it--I want to thank Sam Brunelli for helping me 
arrange this. For those of you who don't know who Sam Brunelli 
is, he was an All-Pro football player for some team out west 
called the Denver Broncos. Is that what it was, Sam? Yes. Well, 
Sam did a great job for them. He was All-Pro, but I think this 
year they're going to be whipped by the Indianapolis Colts in 
that division. And Sam's thinking over there, ``Not in your 
lifetime.'' [Laughter.]
    In any event, you've all been sworn and I want to thank you 
for being patient with us while we were gone.
    I think what we'll do is we'll start right down the list 
there.
    Ms. Weathers, why don't you start with your testimony? And 
if you can, keep your testimony to 5 minutes, but we won't kill 
you if you go just a few seconds over.

 STATEMENTS OF PATRICIA WEATHERS, PRESIDENT, PARENTS FOR LABEL 
   AND DRUG FREE EDUCATION; MARY ANN BLOCK, D.O., AUTHOR AND 
    MEDICAL DIRECTOR, THE BLOCK CENTER; LISA MARIE PRESLEY, 
 NATIONAL SPOKESPERSON, CITIZENS' COMMISSION ON HUMAN RIGHTS; 
  AND BRUCE WISEMAN, U.S. PRESIDENT, CITIZEN'S COMMISSION ON 
                          HUMAN RIGHTS

    Ms. Weathers. My name is Patricia Weathers. I am a mother 
from New York State. I have considerable concern regarding the 
outcome of this hearing because my son, Michael, was one of the 
children profiled for ADHD by our school district. When Michael 
was in kindergarten, I began getting reports that he was having 
behavioral problems. What was meant by this is that Michael was 
talking out of turn, clowning around in class, and apparently 
not sitting still.
    The following year, while Michael was in first grade, his 
teacher told me that his learning development was not normal 
and that he would not be able to learn unless he was put on 
medication.
    Near the end of first grade, the school principal took me 
into her office and said that, unless I agreed to put Michael 
on medication, she would find a way to transfer him to a 
special education center. I felt intimidated, scared, and 
unsure of what to do as a result of the school's coercive 
tactics. At no time was I offered any alternatives to my son's 
needs, such as tutoring or standard medical testing. The 
school's one and only solution was to have my child drugged.
    At this point, his teacher filled out an actor's profile 
for boys, which is an ADHD checklist, and sent it to his 
pediatrician. This checklist, along with a 15-minute evaluation 
by the pediatrician, led to my son being diagnosed with ADHD 
and put on Ritalin. After a while, my son started to exhibit 
serious side effects from the drug. He was not socializing, 
became withdrawn, and began chewing on various objects. His 
eating and his sleeping were sporadic and of great concern to 
me.
    Instead of recognizing the side effects of the drugs, the 
school psychologist claimed Michael now had either bipolar 
disorder or social anxiety disorder and needed to see a 
psychiatrist. She produced a name and a number of the 
psychiatrist I was to call. The psychiatrist talked to my son 
and I for a short period and, again, with the aid of school 
reports, diagnosed him with social anxiety disorder. She handed 
me a prescription for an antidepressant, telling me it was a 
``wonder drug for kids.'' Those we her exact words. There was 
no information about the serious side effects associated with 
this drug.
    The drug cocktail that was to follow caused even more 
horrendous side effects, making his behavior more and more out 
of character. I could no longer recognize my own son.
    Fearing what these drugs had done to him, I stopped them.
    Through this whole ordeal, the school psychologist's 
favorite saying was that it was trial and error. If one drug 
didn't work, try another.
    Realizing that I was no longer willing to fall in line and 
give my child drugs, the school threw him out. For a final 
blow, they proceeded to call child protective services on my 
husband and I, charging us with medical neglect for refusing to 
drug our child. This charge was later ruled unfounded.
    On August 7th of this year the ``New York Post'' featured 
my son's story and the fact that I had decided to file a 
lawsuit against the school system on behalf of my son Michael's 
ordeal. On Friday, September 20th, this lawsuit was officially 
filed in Federal court. Within just a few days of the ``New 
York Post'' article being published, over 65 parents came 
forward to describe their own personal stories of coercion and 
intimidation used by school districts used to strong-arm them 
into drugging their children. Since then, many more have come 
forward.
    Through my family's experience, I feel the issue of 
informed consent is crucial. As a parent, I was simply not 
provided with accurate and critical information regarding the 
issue of ADHD. I was never made aware of the controversy 
surrounding this disorder whereby many medical professionals do 
not validate it as a true medical condition. I was never 
provided with the information that there is no independent, 
valid test for ADHD. I was never given any warnings about the 
documented side effects that could occur with the drugs used to 
treat it. I was never informed that there are studies showing 
the correlations between stimulant use and later drug use. As a 
final point, I was at no time made aware that this drug use 
could bar my child from future military service. As a mother, I 
should have been given all of this information to make an 
informed decision on behalf of my child. After all, it is we 
who are ultimately responsible for the nurture, care, and 
protection of our children. We are unable to fulfill this 
obligation and make sound educated decisions without getting 
all the facts.
    Accountability is what I am seeking. I would never have 
subjected my son to being labeled with a mental disorder if I 
had known that it was a subjective diagnosis. I would not have 
allowed my son to be administered drugs if I had been given 
full information about the documented side effects and the 
risks.
    It is for this reason that I am asking this committee to 
fully investigate these matters as they relate to the issue of 
informed consent and to enact legal safeguards so that parents 
can fulfill their obligations to shield their children from any 
potential harm.
    Thank you.
    Mr. Burton. Thank you very much, Ms. Weathers. I think that 
was a very, very important statement and we really appreciate 
your coming here to day.
    [The prepared statement of Ms. Weathers follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.013
    
    [GRAPHIC] [TIFF OMITTED] 83516.014
    
    Mr. Burton. Dr. Block.
    Dr. Block. Thank you for inviting me to this hearing. I am 
Dr. Mary Ann Block, an osteopathic physician from Texas. For 
those of you who are unfamiliar with the osteopathic 
profession, let me tell you a little bit about us. We are fully 
licensed physicians with the ability to write prescriptions, 
perform surgery, and be residency trained in all the same 
specialties as M.D.s. The difference between M.D.s and D.O.s is 
two-fold: one, as a D.O. I had 150 more hours in medical school 
than M.D.s. Osteopathic physicians tend to be more holistic in 
their approach because of a philosophy that teaches us that the 
body and mind should be viewed as a unit.
    Because of my medical training, my goal as a physician is 
to look for and treat the underlying cause of a patient's 
problem, rather than just covering the symptoms with drugs. I 
have seen and treated thousands of children from all over the 
United States who had previously been labeled ADHD and treated 
with amphetamine drugs. By taking a thorough history and giving 
these children a complete physical exam, as well as doing lab 
tests and allergy testing, I have consistently found that these 
children do not have ADHD but, instead, have allergies, dietary 
problems, nutritional deficiencies, thyroid problems, and 
learning difficulties that are causing their symptoms.
    All of these medical and educational problems can be 
treated, allowing the child to be successful in school and in 
life without being drugged.
    The American Osteopathic Association has published my 
program as the osteopathic approach to treating the symptoms 
called ADHD. This approach is supported in the medical 
literature, as well. The ``Annals of Allergy'' reported in 1993 
that children with allergies perform less successfully in 
school across the board than children who do not have 
allergies, yet doctors prescribe amphetamines without ever 
checking the child for allergies.
    A study in the ``Journal of Pediatrics'' in 1995 reported 
that children who ate sugar had an increase in adrenalin levels 
that caused difficulty concentrating, irritability, and 
anxiety.
    A double blind cross-over study published in ``Biological 
Psychiatry'' found that Vitamin B-6 was actually more effective 
than Ritalin in a group of hyperactive children.
    Another study found that children with magnesium 
deficiencies were characterized by excess fidgeting and 
learning difficulties.
    There are many more studies in the medical literature that 
indicate an association between nutritional deficiencies and 
attention and behavioral problems, yet doctors prescribe 
amphetamines without checking a child's diet.
    There is no valid test for ADHD. The diagnosis called ADHD 
is completely subjective. While some like to compare ADHD to 
diabetes, there really is no comparison. Diabetes is an insulin 
deficiency that can be objectively measured. Insulin is a 
hormone manufactured by the body and needed for life. ADHD 
cannot be objectively measured and amphetamines are not made by 
the body, nor are they needed for life.
    The prescription drugs that are used to treat symptoms of 
attention and behavior come with a host of potential side 
effects. According to the manufacturers of the drugs, the 
following side effects can and do occur: insomnia, anorexia, 
nervousness, seizures, headaches, heart palpitations, cardiac 
arrhythmias, psychosis, angina, abdominal pain, hepatic coma, 
anemia, depressed mood, hair loss, weight loss, tachycardia, 
increased blood pressure, cardiomyopathy, dizziness, and 
tremor, to just name a few.
    These drugs are classified as Schedule II controlled 
substances with high abuse potential. According to reports in 
the ``Journal of the American Medical Association,'' the drug 
Ritalin has been found to be very similar to and more potent 
than cocaine. Ritalin and cocaine are so similar that they are 
used interchangeably in scientific research.
    There are no long-term studies on the safety and 
effectiveness of these amphetamine drugs, though millions of 
children are treated with them for years at a time.
    When I was in school and when my children were in school, 
there was no need to drug millions of children. While there are 
children who have attention and behavioral problems, and these 
problems may have increased due to poor diets, an increase of 
sodas and candy in our schools, an increase in allergies due to 
changes in our environment, and an increase in learning 
problems, it does not mean these children have a psychiatric 
disorder called ADHD. It means they have medical and 
educational problems that can be fixed.
    Most of the children I have seen who have been prescribed 
these drugs have never had a physical exam. No doctor listened 
to their heart, even though many of the side effects of the 
drugs are heart related. Since there is no valid test for ADHD, 
most doctors get the information for the diagnosis from the 
child's teacher in the form of a checklist. If the teacher 
wants the child to be taking these drugs, all she or he has to 
do is fill out the checklist indicating that the child has many 
problems in the classroom.
    One child was diagnosed as ADHD and prescribed Ritalin, but 
I got to treat him, instead. Once his allergies and learning 
problems were corrected, he went on to become a National Merit 
finalist and accepted to an Ivy League university. Every child 
deserves that opportunity.
    Many of the parents of these children have told me that the 
teachers and principals have pressured them to put their 
children on these drugs, threatening to report them to child 
protective services if they do not comply.
    CPS actually removed a child from his home after the school 
reported the mother for not giving the child his drug. The 
ironic thing was she had been giving him the drug. The drug 
made him worse, not better.
    I cannot imagine any reason to give a child an amphetamine 
to cover up symptoms when the problem can be fixed and no drug 
is required. Let's give our children the medical and 
educational evaluations they need to diagnose the real 
problems. Let's treat these real problems and give our children 
the future they deserve without drugs.
    I will show a brief video which shows a child disruptive 
behavior caused from allergies. I'm also submitting as part of 
my written evidence my latest book, ``No more ADHD: Ten Steps 
to Help your
Child's Attention and Behavior Without Drugs.''
    Thank you.
    [Videotape presentation.]
    Mr. Burton. Thank you very much.
    [The prepared statement of Dr. Block follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.015
    
    [GRAPHIC] [TIFF OMITTED] 83516.016
    
    [GRAPHIC] [TIFF OMITTED] 83516.017
    
    Mr. Burton. Ms. Presley.
    Ms. Presley. Thank you very much, Congressman Burton and 
committee members, for the opportunity to address this hearing.
    I'm here as a mother mostly, because I have to put my 
children in school, and I've also had direct contact with these 
children who are medicated, and I can tell by their behavior 
that they are. They're usually manic, very destructive, very 
interested in destruction. You know, we have already said it a 
hundred times, but between 6 and 8 million American children 
are being given Schedule II narcotics and/or mind-altering 
antidepressants. It's not just ADHD.
    Some of the other drugs case tics, cause this, which goes 
into a spiral of OCD, Turrette's, this, that, and the other 
thing, and all these, normal behaviors for children are now--
everything is a disorder. I mean, I basically would have 
everything under the sun at this point. I'll stand up and 
testify to that, too.
    But, anyway, I'm just saying I have personally seen the 
side effects of these drugs. Ritalin, for example, can cause 
nervousness, loss of appetite, weight loss, and manic behavior. 
Even the manufacturer warns that it can cause psychotic 
episodes. Suicide is a risk during withdrawal.
    Some of these drugs are advertised as non-addictive, but I 
have known numerous people who have been to rehab centers to 
get off of them. Teenagers on powerful psychiatric drugs 
committed more than half of the recent teenage shooting 
sprees--that's very alarming--resulting in 19 deaths and 51 
wounded. I don't think there has been a correlation made in the 
media with that, but it seems awfully coincidental--not 
coincidental.
    Parents need to be informed of drug-free alternatives to 
the problems of attention behavior and learning. A child could 
be fidgeting in class or simply bored with what they are 
learning and then are diagnosed with a learning disorder and 
put on drugs. Some of these disorders, from what I understand, 
are also--you know, psychiatrists raise their hand and decide 
something is a disorder that's not factually, scientifically 
proven to be such. There is no blood test. There have been no 
autopsies to confirm brain chemical imbalance. A child could 
have allergies, lead poisoning, eyesight or hearing problems, 
be simply in need of tutoring, or something even more basic 
than that, which could be phonics.
    I have not seen one happy and well-adjusted child as a 
result of these drugs. That's just my personal experience. What 
is basically happening is that we are relying on a chemical to 
change the mood of a child. At least one of these more drugs is 
more potent than cocaine, and we are turning children into drug 
addicts at a very young age.
    My hope is that the committee will recommend legislation 
that prevents school personnel from coercing parents into 
placing their children onto mind-altering drugs. They become 
dependent on them and that leads to further drug addiction, 
which then leads to crime, which leads to all the other 
terrible things we always have to deal with in life, and 
ultimately that we don't allow these drugs into the schools, 
period. Our schools should only be there to educate our 
children and not to diagnose any--have the ability or the right 
to diagnose children with mental health problems. It is way 
over-prescribed, way over done, and I think that at least--even 
with the people, from what I've seen here today, that want to 
go on the other side of the fence--still see that it is a 
situation and it is a problem.
    That's all I have to say. It is a concern.
    [The prepared statement of Ms. Presley follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.018
    
    [GRAPHIC] [TIFF OMITTED] 83516.019
    
    [GRAPHIC] [TIFF OMITTED] 83516.020
    
    [GRAPHIC] [TIFF OMITTED] 83516.021
    
    Mr. Burton. And you have been the head of this organization 
or one of the leading spokesmen for some time now?
    Ms. Presley. Actually, no, I'm just becoming one. I mean, I 
have done a lot of things with them before on this front, but 
I'm now taking on the title as the spokesperson for this 
committee.
    Mr. Burton. Very good.
    Ms. Presley. Yes.
    Mr. Burton. Mr. Wiseman.
    Mr. Wiseman. Thank you, Chairman Burton and members of the 
committee, for the opportunity to speak today. For over 30 
years, CCHR's observations and conclusions have been drawn from 
speaking to hundreds of thousands of parents, doctors, 
teachers, and others.
    For example, at 7, Matthew Smith was diagnosed through his 
school as having ADHD. His parents were told he needed a 
stimulant to help him focus and that noncompliance could bring 
criminal charges for neglecting their son's educational and 
emotional needs.
    On March 21, 2000, while skateboarding, Matthew tragically 
died from a heart attack. The coroner determined that he had 
died from the long-term use of the prescribed stimulant.
    We all know that there are children who are troubled who do 
need care, but what that care is or should be is the point of 
contention.
    In 1999, in the wake of the Columbine school shooting, CCHR 
worked with Colorado State Board of Education member Mrs. Patty 
Johnson, who had a precedent-setting resolution passed that 
recommended academic rather than drug solutions for behavioral 
and learning problems in the classroom. Mrs. Johnson stated, 
``The diagnosing of children with mental disorders is not the 
role of school personnel, nor is recommending the use of 
psychiatric drugs.''
    The resolution told educators that their role was to teach 
and pursue academic and disciplinary solutions for problems of 
attention and learning.
    In 2000, Jennifer L. Wood, chief legal counsel for the 
Rhode Island Department of Education, issued a letter to all 
schools that under the Individuals with Disabilities in 
Education Act, ``it is not lawful for school personnel to 
require that a child continue or initiate a course of taking 
medication as a condition of attending school.'' School 
personnel cannot require, suggest, or imply that a student take 
medication as a condition of attending school, yet this is 
violated across the Nation.
    Millions of children are being drugged with powerful 
stimulants and antidepressants, placing our Nation's children 
at risk. In 2001, the ``Journal of the AMA'' reported that 
Ritalin can act much like and is chemically similar to cocaine. 
It admits that, while psychiatrists have used this drug to 
treat ADHD for 40 years, they have never known how or why it 
worked.
    As a result of over-medicating our children and the fact 
that so many parents were being forced to place their child on 
such drugs, currently more than half of our States have 
introduced and/or passed some type of legislation or regulation 
to restrict the use of psychiatric drugs for children. I'm 
submitting a selection of these for the committee's review. One 
of which cites the 1998 NIH Conference on ADHD, which said, in 
part, ``We don't have an independent, valid test for ADHD. 
There are not data to indicate that ADHD is due to a brain 
malfunction. And finally, after years of clinical research and 
experience with ADHD, our knowledge about the cause or causes 
of ADHD remain speculative.'' This is perhaps the crux of the 
problem. We're relying on a diagnosis that is subjective and 
open to abuse.
    Evidence reviewed by the National Academy of Sciences this 
year indicates that toxic chemicals contribute to learning or 
behavioral problems, including lead, mercury, industrial 
chemicals, and certain pesticides. Furthermore, thousands of 
children put on psychiatric drugs are simply smart. The late 
Dr. Sydney Walker, psychiatrist and author, said, ``These 
students are bored to tears, and people who are bored fidget, 
wiggle, scratch, stretch, and start looking for ways to get 
into trouble.''
    All of this information should be made available to parents 
when making an informed choice about the medical or educational 
needs of their child. This is in keeping with U.S. Public Law 
96-88, which states, ``Parents have the primary responsibility 
for the education of their children and States, locality, and 
private institutions have the primary responsibility for 
supporting that parental role.''
    As senior Government officials, you represent the lives of 
all citizens. Families are grieving for the loss of children 
because they are not provided with all the facts about mental 
health treatments, especially psychotropic drugs, and were 
denied access to alternative and workable solutions.
    We respectfully request that the Government Reform 
Committee recommend Federal legislation that: A, makes it 
illegal for parents or guardians to be coerced into placing 
their child on psychotropic drugs as a requisite for his or her 
remaining in school; B, protects parents or guardians against 
their child being removed from their custody if they refuse to 
administer a psychotropic drug to their child; C, provides 
parents the right of informed consent, which includes all 
information about alternatives to behavioral programs and 
psychotropic drugs, including tutoring, vision testing, 
phonics, nutritional guidance, medical examinations, allergy 
testing, standard disciplinary procedures, and other remedies 
known to be effective and harmless; and, finally, that such 
informed consent procedure must include informing parents about 
the diverse medical opinion about the scientific validity of 
ADHD and other learning disorders.
    Thank you.
    Mr. Burton. Thank you very much.
    [The prepared statement of Mr. Wiseman follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.022
    
    [GRAPHIC] [TIFF OMITTED] 83516.023
    
    [GRAPHIC] [TIFF OMITTED] 83516.024
    
    [GRAPHIC] [TIFF OMITTED] 83516.025
    
    [GRAPHIC] [TIFF OMITTED] 83516.026
    
    [GRAPHIC] [TIFF OMITTED] 83516.027
    
    Mr. Burton. Let me just start with you, Mr. Wiseman. You 
indicated that--are there some States that don't allow the 
dismissal of a child because of the parents' refusal to use 
these mind-altering substances?
    Mr. Wiseman. That don't allow the dismissal of a child?
    Mr. Burton. No. Are there some States that have some kind 
of a last right of refusal for parents to keep the child in 
school if they refuse to take these mind-altering substances?
    Mr. Wiseman. Well, there are States, if I am understanding 
the question correctly, States have started in 1999 to actually 
pass legislation and regulations prohibiting schools from doing 
that, but it has been a problem--so much of a problem that 
there are now 27 States that have passed or have legislation or 
resolutions in progress that address this issue. So it was 
enough of a problem that, as I say, more than half the States 
in the country have actually had to address the problem with 
legislation because it was being abused. Parents were being 
coerced.
    Mr. Burton. Well, the reason I ask that question is many 
school districts and many States around the country, they 
require children to get inoculations for as many as 26 
different childhood diseases. My grandson received 9 shots in 1 
day, and I think in total number of shots that he will receive 
prior to going to first grade would be around 26.
    Mr. Wiseman. My word.
    Mr. Burton. He received 47 times the amount of mercury that 
is tolerable in an adult in 1 day, and 2 days later he became 
autistic. While we're hoping he is going to recover, he may be 
permanently damaged.
    I guess the point I'm trying to make is these requirements 
are at the school board level or at the county level or at the 
State level, they're not requirements that the Federal 
Government imposes. And so I'm wondering, you're asking for 
legislation at the Federal level that would give parents the 
right to refuse these mind-altering substances, and one of the 
problems that we will have with some of our colleagues is that 
that will be looked upon as an infringement of the local school 
boards' or States' rights. I just wondered if you had given 
that any thought.
    It's not that I'm opposed, you understand, to trying to do 
what we can here at the Federal level to deal with the problem 
after we hear all the testimony, but each individual State has, 
up to this point, been dealing with childhood problems like 
this.
    Mr. Wiseman. Yes. Unfortunately--and not to be repetitious, 
but, unfortunately, we hear in our organization mothers calling 
in that are being coerced, and the abuse is tragic. Parents are 
being threatened with either criminal charges, as I mentioned 
in my testimony, or in some cases the loss of their children 
because they're not put on mind-altering drugs. I mean, we're 
at the dawn here of the 21st century, and there are some 
children who aren't permitted to go into school unless they're 
on a mind-altering drug.
    The Federal legislation that bears on this is the 
Individuals with Disabilities in Education Act. The problem is 
that the definitions in that law and the definitions that 
filter down to the school districts under that law are so 
subjective that the disorder is in the eye of the beholder. 
There are no objective tests for this, as has been testified 
here this morning and from folks on the panel. There is no 
scientifically based studies that enable somebody to make such 
a diagnosis. So, because they are so subjective, it is open to 
abuse.
    Mr. Burton. What I'd like to have from you, Mr. Wiseman, is 
some proposed language that we can take a look at that might be 
appropriate at the Federal level. We approach stepping into 
States' rights with great trepidation, at least on this side of 
the aisle, so this is something we'd have to take a hard look 
at. But I will look at it and see if we can fashion something 
that will maybe encourage the States to be more concerned about 
parental rights and how the children are handled and whether or 
not they're completely, properly tested before they start 
putting these drugs into them.
    Mr. Wiseman. As a former teacher of American history, I 
share, one, your love of the Constitution, and your concern for 
States' rights very, very much. But with somewhere on the order 
of 6 million children in this country being placed on the 
Schedule II narcotics, I do think it is something the Federal 
Government should look for, and we'll be happy to provide you 
with some suggested wording.
    Mr. Burton. Very good.
    I'll get to you, Mrs. Davis, in just a minute, as soon as 
we finish these first questions. We'll be with you in just a 
second.
    Ms. Weathers, you stated that your son's school pressured 
you to medicate your son, and that at the time you trusted them 
because they were ``the experts.'' At any time did the school 
or your son's doctor talk to you about the potential side 
effects of those drugs?
    Ms. Weathers. Absolutely not. The most the pediatrician had 
told me was that there was possible appetite suppression and 
possible insomnia. She never at any time advised me that there 
are deaths related to this, there's cardiac problems, heart 
problems related to these drugs, that his growth would be 
seriously impaired.
    When I took Michael off these drugs, within 3 weeks he grew 
three sizes, so nobody can tell me that those drugs didn't have 
a great, a tremendous, a horrendous effect on him.
    Mr. Burton. Did your doctor also recommend any behavioral 
modification training or counseling for your son?
    Ms. Weathers. Absolutely not. She did not. Basically, I had 
to go in, I believe every 3 to 4 months, for a prescription 
refill.
    Mr. Burton. So they just didn't check any of that out? They 
just said, ``These are the things that you have to do,'' and 
prescribed the drugs?
    Ms. Weathers. They basically--all she did was ask me how he 
was doing.
    Mr. Burton. Did the doctor ever do any blood tests or 
objective medical evaluation to look at any possible biological 
basis for his behavior?
    Ms. Weathers. I don't believe there was. I think early on 
there was a blood test taken, but, once again, you don't have a 
blood test to determine ADHD. You can only have a blood test to 
rule out underlying causes. I believe the only thing they did 
rule out was lead toxicity.
    Mr. Burton. Dr. Block, what have you found that the schools 
do specifically to encourage the use of medications for 
attention behavior?
    Dr. Block. The parents that come to me report consistently 
that the teachers and the principals and even the school nurses 
pressure them to go to a physician and get their child labeled 
and drugged. In addition, even though the State of Texas Board 
of Education has passed one of these State resolutions being 
concerned about the drugging of children, it appears to me that 
the teachers are not yet aware of it, because nothing seems to 
have changed since that resolution has passed.
    Some schools are giving lectures to parents, inviting 
parents to come hear talks about diagnosing and drugging their 
children for ADHD.
    Another thing that has recently occurred, it's not unusual 
for me to make recommendations for certain nutrients or other 
things that the child may need to naturally help their body and 
mind work better, and I will write a prescription for that 
child to receive that nutrient at school. What is happening 
now, though, is that the schools are denying my medical 
prescription and saying that they will not give a child 
anything at school except a drug. That, to me, is practicing 
medicine without a license.
    And, unfortunately, physicians, themselves, according to 
the FDA, less than 1 percent of doctors actually know the side 
effects of the drugs that they are prescribing. Pharmaceutical 
reps that come to my office have told me more than once that 
I'm the only doctor they've called on that asked what the side 
effects of the drug was that they were repping to me.
    Mr. Burton. Let me--I see I'm running out of time here and 
I want to get to Mrs. Davis, but do you have any idea how 
physicians are influenced by the pharmaceutical companies to 
prescribe these medications for kids?
    Dr. Block. Yes. As a physician I see this influence all the 
time. For one thing, I don't think any of us can turn on the 
television, radio, open up a newspaper or magazine without 
seeing multiple advertisements for prescription drugs. They go 
so far as to say, ``Ask your doctor if this drug is right for 
you,'' encouraging the public to go to the doctor to get a 
drug.
    But, in addition, I don't believe the public is aware of 
the strong influence the pharmaceutical industry has on 
physicians. From the time we start medical school until the day 
we stop our practice, we are strongly influenced or attempted 
to be strongly influenced by the pharmaceutical industry. Our 
medical journals, which are purported to be unbiased, usually 
have about 60 percent of their pages as full-page ads from the 
pharmaceutical industry.
    If I go to a continuing medical education meeting, which is 
required by law that I attend so many hours each year, the 
doctors who are talking to us are being paid by the 
pharmaceutical industry to give those lectures. Many doctors 
are being paid in their offices to do research for the 
pharmaceutical industries, as well. They also give money to 
different groups who go out and promote the use of these drugs 
for our children.
    So the pharmaceutical companies have a tremendous influence 
on our society, and especially on physicians. It is concerning 
when doctors don't even know the side effects. There's no way 
that they can tell a patient if they don't know them 
themselves.
    Mr. Burton. I will yield to Mrs. Davis, but let me just say 
my son-in-law is a doctor and I've gone to a number of these 
lectures that are put on by pharmaceutical companies, and I can 
tell you, as one who goes--and they're very nice dinners they 
put on, and very expensive in many cases, have great wines and 
all those sorts of things--they do have doctors that come in 
and talk about the attributes and the positives about these 
drugs so that they are very effective in selling their products 
to the doctors and the doctors writing those prescriptions.
    Incidentally, we will have a second round of questions, 
because I have some more questions for the panel.
    Mrs. Davis.
    Mrs. JoAnn Davis of Virginia. Thank you, Mr. Chairman. I 
don't have too many.
    I tried to say at the beginning that we just have this 
tendency in our country to go from one end to the other and we 
never seem to find the right balance, and I think that's where 
we are right now with the ADHD and the Ritalin. Like I said, 
when my son was put on it the teachers didn't even know about 
ADHD, and I understand now they're even training the teachers 
in school or something. In fact, my son's pediatrician wasn't 
even that familiar with it. He sent me to a psychologist, and 
we did a lot of testing.
    It was explained to me--and, Dr. Block, this is for you--it 
was explained to me that, with the ADHD, the child has the 
blood in the frontal lobe of his brain, I guess, just goes so 
slow that that's why he can't concentrate--he's seeing, like, 
three different pictures, or what have you, and that's why they 
can sit in front of a TV for hours, because so much is going 
on--and that the Ritalin would speed up the blood flow and then 
cause them to be able to concentrate. Have you ever heard that?
    Dr. Block. I certainly have heard that and it is an 
interesting theory, but it has never been proven. In fact, 
drugs like Ritalin and other amphetamine-type substances, one 
of the basic things they do is make you focus. They can make 
you over-focus, but they--it has been found that anyone who 
takes this type of drug will have a similar effect, because 
that's what it is. It doesn't prove that someone needs the drug 
because they have that effect.
    But there is many theories going around, and there's many 
people who are looking at all kinds of brain scans and 
everything else, but when you look at the child in my video who 
was reacting to an allergy, I assure you if you did a brain 
scan of him at the time when he's reacting you would see 
reactions.
    And so my focus is really on information, informed consent, 
that parents be told what all their options are, that they be 
told all the possible side effects to any treatment.
    You know, I think parents always care so much for their 
children, they're going to do what is right for their child if 
they are given all the information.
    Mrs. JoAnn Davis of Virginia. I agree with you, and we were 
told the side effects of Ritalin when we gave it to our son. 
That's why it took us so long to give it to him, because you 
just--we didn't want to do it. We did not. And it was actually 
a last resort for us to do that. It did work for him.
    Ms. Weathers, I had a question for you, and if you will 
give me a second it will come back to me.
    You said that the teachers all said your son had a problem. 
Did you ever find out what the problem is or was? Or is this 
just recent?
    Ms. Weathers. No, this isn't recent. You know, in my 
opinion Michael is extremely bright. He was not reading at 
grade level. There was a lot of factors that were playing a 
role in his behavior that were not even addressed by the 
teachers. When he was going into fifth grade he was reading at 
a second grade 8 month level. OK? That isn't normal. They were 
putting him in a special ed room and not teaching him phonics. 
I think that's horrendous. I really do.
    Mrs. JoAnn Davis of Virginia. Did you have problems with 
him at home?
    Ms. Weathers. No. I would never, ever--and I want to make 
this perfectly clear for everybody in this room--I would never 
have contemplated drugging my child ever. He never had behavior 
problems at home. The minute he entered school, that's when the 
trouble started. That is when I was coerced. I felt under 
pressure. I felt like everyone was telling me that this was the 
best thing. I was a single mom. I was scared. I was unsure. You 
know, I felt, ``These are the experts. They know children.'' 
And I know, I get hundreds of phone calls throughout the 
country, hundreds from other parents having the same experience 
that I have endured and my family and my son has endured, as 
far as Hawaii. I have a woman in the State of Hawaii who had to 
leave the State of Washington because she was so pressured. She 
wanted to pick the State with the lowest consumption of Ritalin 
abuse, and she flew her entire family to Hawaii. Her name is 
Susan Perry, and I am in contact with her now, and we are 
fighters, and I'm going to fight this issue until the very end, 
because parents are not informed nowadays. We're not told the 
side effects. We are just not. And it is just tragic because 
our children are suffering and our children are what counts.
    Mrs. JoAnn Davis of Virginia. Thank you, Ms. Weathers. I 
totally agree with you. As a Mom, there's nothing more 
important to me than our kids, and I know how you feel.
    Thank you, Mr. Chairman.
    Mr. Burton. We'll have a second round of questions.
    Let me just tell you something that is of interest that you 
might find interesting, Ms. Weathers. Mercury is in a lot of 
our vaccines. Mercury is a toxic substance. I've talked to a 
number of doctors, including doctors here on the Hill that 
treat Congressmen, and I told them, I said, ``Do you know that 
in our flu shots that we get there's mercury?'' And some of the 
doctors said, ``No, no. There's no mercury in there.'' And I 
took the insert out and I showed it to them, and it says, 
``thimerosal.'' And they said, ``See, there's no mercury in 
there.`` And I say, ``Thimerosal contains mercury.'' It has 
never been properly tested since 1929. It was tested on 27 
people who all were dying from meningitis. All of them died, 
and so they said that the mercury didn't cause it. But they've 
never tested it ever since, and it has been given to our 
children. My grandson got nine shots, many containing mercury, 
in 1 day, and 2 days later he was autistic and may be maimed 
for life. He's not responding as we would like.
    And so you are absolutely correct. Parents need to be 
informed about the substances in the vaccines and in the pills 
and all the other treatments they're getting, and if they don't 
get that then shame on us. And doctors need to be given the 
proper information from the Food and Drug Administration, and 
the Food and Drug Administration has been derelict in their 
responsibilities in doing that.
    I'm very sorry we don't have the FDA here today, because 
the FDA's responsibility is not only to test these things, to 
do double blind studies and everything else before we start 
administering these things to the population and our children, 
but they're also supposed to inform people, and they haven't 
been doing that, as well, and that's one of the reasons why 
we've had so many problems with them over the years. But we 
will be contacting the FDA about that.
    Let me ask you, Dr. Block, one more question. And I will 
have other questions I'd like to submit to you for the record 
that you can answer later.
    As you know, we've learned that a Government-funded study 
found a correlation between the use of thimerosal, mercury-
containing vaccines, and a diagnosis of ADD. Do you think that 
every child that is referred to a doctor for ADD evaluation 
should be tested for heavy metals?
    Dr. Block. Yes, I do think every child should be. In 
addition to seeing a lot of children with attention and 
behavioral problems in my practice, I see a lot of children who 
have been diagnosed as autistic, and through testing these 
children for heavy metals and often finding mercury and lead 
and other heavy metals, begin testing the children who have 
attention and behavior problems, and often find the same thing 
with them, as well.
    I think that these problems are on a continuum where one 
child has severe symptoms and gets the autistic label, while 
another child gets an ADHD label, but I'm finding the same 
underlying problems in all of these children.
    Mr. Burton. Heavy metals being one of them?
    Dr. Block. Heavy metals being a major one, yes.
    Mr. Burton. And so it would be your opinion that these 
preservatives they're putting in that contain aluminum and 
mercury, in particular, should be taken off the market? They 
should take those things out of there?
    Dr. Block. They should be taken off the market. They were 
supposed to be taken off the market was my understanding, but 
they have not been taken off the market. Many pediatricians 
actually believe they have been taken off the market, so 
they've not looked to see if the thimerosal is in the vaccine. 
But they are still in the vaccines. Children are still getting 
as many as eight or nine different diseases immunized against 
in a single visit to the doctor's office, and many of those 
vaccines do contain the mercury and aluminum, which work 
together to make the problem even worse.
    Mr. Burton. Let me just say that we suspect--in fact, I'm 
pretty sure--that, while they're starting to get mercury out of 
children's vaccines here in the United States, we send vaccines 
all over the world to Third World countries, and we send them 
with multiple vaccines in one vial, and they are still using 
the mercury, the thimerosal in those almost entirely around the 
world. And so, while we're starting to get them out of our 
vaccines, we're continuing to inject mercury into children all 
over the world in Third World countries, which I think is 
almost criminal.
    Let me ask Ms. Presley a question here.
    Ms. Presley. Yes, sir?
    Mr. Burton. Why did you choose to get involved in this 
discussion of ADHD? Have you had a family that was 
misdiagnosed?
    Ms. Presley. Yes, I have. I have also had experience with 
mercury. I had nine fillings at one point, and I went 2 years 
almost going crazy getting asthma, hypoglycemia, candida, all 
these troubles. I've baffled every doctor from one coast to the 
next. And then, when I finally got the diagnosis you're 
supposed to have between zero and three normal in a human body 
and I had 1,000-plus. The doctor called me and said the term 
``Mad as a Hatter'' is from people who used to work in felt 
factories where they would be exposed to mercury and they would 
go crazy.
    I had experience with that, and the moment I started taking 
things either naturally or a chelation agent to get it out, all 
the symptoms stopped. So I have had personal experience with 
that and I do know that mercury is not only in vaccines, they 
are in fillings of children. They still use it in the mouth.
    Mr. Burton. Amalgams.
    Ms. Presley. Yes, amalgams.
    Mr. Burton. Most people don't know that 50 percent of the 
silver fillings in your mouth, 50 percent of those are mercury.
    Ms. Presley. Yes, sir.
    Mr. Burton. A lot of people don't know that.
    Ms. Presley. Other than that--I'm sorry--the reason I got 
involved was because I've had personal experience around 
children who are medicated and I see their behavior and I see 
that it is usually something very obvious, they do have 
allergies. I've seen them. I've seen them manic, crazy, and 
then they come off of it and there's a whole other story. They 
actually find the reason. You know, there's always a simple 
explanation for it. I just don't want to see our future 
generation being drugged, and I also don't like to see it being 
promoted as something non-addictive when it absolutely is.
    Mr. Burton. One last question of Mr. Wiseman, and I may ask 
a few more after we get through with my colleagues here.
    Are teachers qualified to diagnose medical conditions?
    Mr. Wiseman. Absolutely not, Congressman. We have talked to 
people in the Department of Education who say that that's a DOE 
policy, and virtually every State has that as a policy, yet it 
is happening across the country.
    Mr. Burton. We actually have teachers in schools using a 
checklist that go to a doctor and they are making a direct or 
indirect recommendation to the doctor that this child be put on 
Ritalin.
    Mr. Wiseman. Yes. They have checklists that come out of the 
``Diagnostic and Statistical Manual'' for ADHD. I've seen them.
    Mr. Burton. And the doctors many times have followed the 
recommendations of the teachers?
    Mr. Wiseman. Of course.
    Mr. Burton. Yes.
    Mrs. Morella, do you have questions?
    Mrs. Morella. Yes, sir.
    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Thank you. Thank you, Mr. Chairman, and thank 
you for calling this hearing. I want to thank the witnesses 
also for coming together to offer their comments on it.
    You know, what I particularly like is that you brought in 
witnesses that have various perspectives from all sides of the 
debate, and I think it is important that we listen to arguments 
from those who believe attention deficit disorder is not a 
brain disorder and those who believe it is and warrants 
medication along the lines of Ritalin.
    Considering there has been a 500 percent increase in the 
use of Ritalin in the United States since 1990, and roughly 4 
to 6 million children may be using it daily, I think it is 
important that we ascertain the root causes of ADHD and how to 
best alleviate its effects.
    I wanted to ask a couple of questions, if I may. One, I 
might ask it of Ms. Presley. It is a pleasure to see you in 
person.
    Ms. Presley. Thank you.
    Mrs. Morella. Thank you for being here, and also to Mr. 
Wiseman, because I have before me a statement that has been 
made by the International Citizens Commission on Human Rights 
president, Jan Eastgate. This is a quote. ``Society has been 
under a concerted attack for decades. Designed and implemented 
by psychiatrists, this attack claims countless lives each day. 
Like some malignant disease running rampant, it threatens the 
future of society and ultimately mankind.''
    Now, what I'm wondering is: do you believe in this 
expression that I have just read to you? If both of you would 
comment on that, I'd appreciate it.
    Mr. Wiseman. I can comment, Congressman. We are a 
psychiatric watchdog group. We investigate and expose 
psychiatric abuse. And what we see going on in psychiatric 
hospitals, not only in the United States but around the world, 
would make you weep. I have personally investigated the abuses 
that go on in these hospitals, the physical abuse, the sexual 
abuse, the drugging people into stupors, the electroshock 
treatments, what psychiatry has done to our educational system, 
psychiatric testimony in the courtroom where murderers and 
rapists are let go because they're not guilty because they had 
an irresistible impulse based on psychiatric testimony. So I 
would certainly agree with Ms. Eastgate's comments.
    Ms. Presley. I personally have not seen psychiatry do any 
good for anyone I've ever known, personally. That's just my own 
experience, whether it be drugging, electric shock therapy, 
which does still exist, which is very barbaric. I don't think 
it goes--I mean, I have my own personal issue with the subject, 
but that's not why I'm here right this moment. This is more 
related to the drugs, again, upon which psychiatry is based, of 
course.
    Mrs. Morella. So you put them all into that one category?
    Ms. Presley. I think they're all correlated.
    Mrs. Morella. All right. If I could ask one other question, 
several medical organizations like the AMA, the Centers for 
Disease Control and Prevention, and the National Institutes of 
Health believe that attention deficit hyperactivity disorder is 
a brain disorder that may require psychiatry or psychiatric 
drugs for treatment. I wonder how could you explain the 
considerably different viewpoint that they hold as opposed to 
the viewpoint of CCHR?
    Mr. Wiseman. Well, I don't know if you are asking me or Ms. 
Presley, but I'll address it and she can, as well.
    Mrs. Morella. If she would like to add something.
    Ms. Presley. I'll address it, as well.
    Mrs. Morella. Thank you.
    Mr. Wiseman. I think the operative word in your question, 
Congresswoman, is the word ``believe.'' It is a matter of 
belief. Our concern is that there is no biologic, organic, 
scientific basis for ADHD. These are subjective symptoms. These 
are behavioral symptoms. The child fidgets, he looks out the 
window, he butts into line. The psychiatrist wraps these 
attributes up and throws a label on it, and the children are 
subsequently drugged.
    That various medical organizations believe that it is a 
brain disease is just that. It is a belief without true 
scientific validity.
    Our point here really is parents should have an opportunity 
to get the other side. They need to have informed consent. They 
need to know, at the very least, that the diagnosis is 
controversial.
    Mrs. Morella. Ms. Presley, did you want to comment on that?
    Ms. Presley. Yes. I haven't seen any evidence. I'm not a 
scientist. I can't back it up scientifically, but I just have 
not seen, whether it be a blood test to diagnose or any other 
thing to diagnose, it is not confirmed, there is no way to do 
it. And there are too many people, if you spend--I would like 
to do a documentary on it, actually, 1 day, just to show how 
long it takes, if you take a child to a psychiatrist, before 
they whip the thing out and start writing a prescription. It's 
usually 10 minutes, 15 maybe, and it is usually just basically, 
you know, based on--sorry.
    Mrs. Morella. Well, I could go on, and I'm not a scientist, 
but I have always had a great belief in CDC and NIH and AMA, 
and you just said forget it.
    Ms. Presley. I would like to just also point out that there 
is an inter-mingling of those three, of course. You know, the 
drug companies, pharmaceutical companies go along very much 
with the APA. They all make money. It's a big industry, you 
know, to push drugs--diagnose disorders and give drugs for it. 
It is an industry. They're making money, a lot of money, a lot 
of money.
    Mrs. Morella. Dr. Block, did you want to comment?
    Dr. Block. Yes. The National Institutes of Health has 
stated that there is no valid test for it and that it is not a 
brain disorder. And also, the medical profession is based on 
coding, and it is coding based on getting paid by the insurance 
company, so a diagnosis that can be objectively defined such as 
diabetes, hypertension, things like that, there are codes for 
those things. The psychiatric community has made codes for 
their psychiatric disorders. But just because there is a code 
for it and doctors can diagnose it and get paid for it doesn't 
mean that there is an objective brain disorder going on.
    Mrs. Morella. Mr. Chairman, I would yield back, but I would 
guess, Dr. Block, you probably would gain a little bit, too, if 
we--if people were scared away from psychiatric drugs, right?
    Dr. Block. Do I gain?
    Mrs. Morella. You probably would gain financially.
    Dr. Block. I have a medical practice working with these 
children, but for me if I get them well and out of my office 
they don't have to keep coming back, whereas if they're being 
drugged they do keep coming back.
    Mrs. Morella. Fine. Thank you very much, Mr. Chairman.
    Mr. Burton. Mrs. Davis.
    Mrs. JoAnn Davis of Virginia. I have one more question for 
Ms. Weathers. When you took your son back to the pediatrician 
to get the prescription refilled, did you say he did not do a 
physical--he or she?
    Ms. Weathers. No, she didn't. She did not do a physical 
exam to refill the prescription for Ritalin. He would have 
once-a-year physical before he started school. That was the 
only physical he had during the course of the year.
    Mrs. JoAnn Davis of Virginia. Thank you, Mr. Chairman.
    Mr. Burton. Judge Duncan.
    Mr. Duncan. Mr. Chairman, I apologize. I have another 
meeting I had to go to, so I'm not going to ask any questions 
at this time. I'll ask them of the next witnesses.
    Mr. Burton. OK.
    Let me just ask a few more questions. In particular, since 
Mrs. Morella is still here, I'd like for her to hear just a 
couple things that were said in her absence.
    According to the AMA, the properties of Ritalin very 
closely parallel cocaine; is that correct?
    Mr. Wiseman. Yes.
    Dr. Block. Yes.
    Mr. Burton. And, according to the AMA--or not the AMA in 
this particular case, according to some testimony that was 
given today, if you grind up Ritalin and make it into a powder, 
the effect of the Ritalin is very, very similar to the effect 
of cocaine, and it is habit forming?
    Dr. Block. Not just the same, it is. I mean, it is the 
same, not just similar.
    Mr. Burton. So cocaine and Ritalin, when put into powder 
form, are the same?
    Dr. Block. They go to the same receptor site in the brain 
and they provide the same high when taken in the same manner 
and are used interchangeably in scientific research.
    Mr. Burton. They're used interchangeably in scientific 
research?
    Dr. Block. Correct.
    Mr. Burton. OK. So when you put a child on Ritalin for a 
long period of time, there is a fairly good chance that that 
child will be addicted, just like a person who uses cocaine?
    Mr. Wiseman. Congressman, I know you asked that of Dr. 
Block, but if I might point out, there's a study by a Dr. 
Nadine Lambert at the University of California Berkeley that 
followed 492 children for 26 years and found that those who 
were labeled with ADHD and given stimulants were 200 to 300 
times more likely to abuse tobacco and cocaine in adulthood.
    Mr. Burton. They were 300 times more----
    Mr. Wiseman. Two to three times more.
    Mr. Burton. Two to three times more likely to use----
    Mr. Wiseman. Tobacco and cocaine.
    Mr. Burton. OK.
    Mr. Wiseman. In adulthood.
    Mr. Burton. Now let me ask you a question that I think we 
will ask of the doctors that are going to come up here, so 
they'll have a preview of some of the questions we're going to 
ask. Has there been any autopsies on children who allegedly 
have ADHD to see if there was any difference between their 
brain and the brain of a child that had ADHD and were given 
these substances like Ritalin?
    Dr. Block. I don't know of any autopsies. I know that there 
are studies that have shown changes in the brain of children, 
but these children were taking drugs like Ritalin. And there 
have been studies that showed children who took cocaine had 
brain changes that looked like holes in their brain, just spots 
on the X-rays. And so the Ritalin may be doing the damage that 
shows up in these children's brains.
    Mr. Burton. Is there any evidence through autopsies of 
brains that would show that children who have ADHD have any 
abnormality?
    Dr. Block. I know of no such studies.
    Mr. Wiseman. I know of no such, sir.
    Mr. Burton. Any other questions?
    Mr. Wiseman, let me just ask you a couple more questions. 
We've seen reports that Ritalin and antidepressants are being 
prescribed for 2-year-olds in the Medicaid population. Are you 
aware of any clinical trials that have evaluated the safety of 
these drugs in children age 2 years old?
    Mr. Wiseman. No, sir.
    Mr. Burton. OK.
    Mr. Wiseman. In a word. And, if I can say, I think it is a 
travesty that children in some cases still in diapers are 
labeled with ADHD and put on, in some cases, several mind-
altering drugs. I think it is barbaric.
    Mr. Burton. So there have been no clinical trials, to your 
knowledge?
    Mr. Wiseman. Not that I'm aware of, sir.
    Mr. Burton. You are aware that the NIH conducted a 
consensus conference on ADHD several years ago. Did they look 
at the entire scope of treatment options, or did they just 
focus on Ritalin?
    Mr. Wiseman. No. They primarily focused on Ritalin. I 
testified at those hearings in November 1998, and they had 3 
days of slides and presentations and so forth, and I read the 
final conclusion. We do not have a valid, independent test for 
ADHD. There are no data to indicate that ADHD is due to a brain 
malfunction. And finally, after years of clinical research and 
experience with ADHD, our knowledge about the cause or causes 
of ADHD remain speculative. That was after 3 days of 
speculations.
    Mr. Burton. But did they look at the entire scope of 
treatment options----
    Mr. Wiseman. No, sir.
    Mr. Burton [continuing]. Besides Ritalin? It was just 
Ritalin, only? OK.
    And, finally, what biologic conditions can lead to an 
inability to concentrate in class in a schoolroom?
    Mr. Wiseman. Well, as I mentioned in my testimony, and as 
Dr. Block has said, there's a number of underlying physical 
problems such as mercury poisoning, lead toxicity, and those 
kinds of things that actually can affect the nervous system and 
can make children act hyperactively.
    Mr. Burton. And just being kids.
    Mr. Wiseman. Yes.
    Mr. Burton. I will tell you, if they had had Ritalin when I 
was a boy I have no question in my mind, as many times as I was 
sent to the principal's office for being out of control, that I 
would have been on Ritalin. I really believe that, because I 
was a real pain in the foot. [Laughter.]
    Did you have any questions?
    Mrs. JoAnn Davis of Virginia. Yes, if you will indulge me 
for a minute.
    You're saying that there's no proof that it's not a 
biological disorder, but there's no proof that it isn't--
there's no proof that it's not a biological disorder, as well, 
right?
    Mr. Wiseman. It's kind of trying to prove a negative, but 
that's correct.
    Mrs. JoAnn Davis of Virginia. What do you say to a parent 
who has had their child tested, there's no physical disorder, 
there's no mercury because there has been no fillings, there's 
no allergies, there's no nothing, and you have more than, Mr. 
Chairman--I believe the children who are ADHD, it is a lot more 
than just out of control. There's many more symptoms other than 
out of control. They're not just a hyper child. What do you say 
to that parent who has had the child tested for everything and 
there's no other explanation, and then they take the Ritalin 
and it totally changes things?
    Dr. Block. I think that every parent has the right to 
choose what's best for their child. The problem is they're not 
being made aware of the options and the possible side effects, 
that they are being pressured to put the child on the drug, 
even when they choose not to, and we are learning new things 
all the time, because mercury doesn't just come from fillings. 
Mercury comes from vaccines, and all children--almost all 
children have had vaccines.
    So there are many different reasons why children have these 
problems, and learning problems are a big one that schools 
often overlook. Nowadays, I'm finding out that even some of the 
places that used to test children for learning disabilities are 
now saying, ``Well, go see if they have attention deficit 
first, and then we'll look at that.'' But it is the tail 
wagging the dog--the learning problems causing attention and 
behavior problems. We need to fix those first.
    Mrs. JoAnn Davis of Virginia. I don't disagree with you.
    And, just to set the record straight, Mr. Chairman, I fully 
believe in my heart that children are being over-medicated and 
everybody is being diagnosed if they are just being children. 
Thank you.
    Mr. Burton. Thank you, Mrs. Davis.
    Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman.
    Mr. Burton. My great friend from Maryland.
    Mrs. Morella. Thank you.
    It's simply that I was looking over the credentials, and I 
noted that the Citizens Commission on Human Rights was 
established by the Church of Scientology; therefore, I wondered 
how is the organization now related to Scientology, and what is 
the church's stance on psychiatry and psychiatric drugs?
    Mr. Wiseman. Well, Congresswoman, we're proud to have been 
founded by the Church of Scientology some 32 years ago. We are, 
however, an independent, IRS-recognized, public benefit 
corporation, and our role is a social reform activity to clean 
up the field of mental health, so we investigate and expose 
psychiatric abuse and psychiatric violations of human rights.
    Mrs. Morella. Does the church have a stance on it, or----
    Ms. Presley. Can I just say ``no'' on that one? No. I'm 
not--I mean, I personally am not here for that reason at all. 
I'm here because I'm a mother and I care about children and 
that's it. And I knew that that was going to come up as a 
question in here and I knew that it was going to be speculated 
that it is because you're a Scientologist, blah, blah, blah. 
The bottom line is that I just think it is inhumane and it's 
not right and it is abusive and an epidemic and it needs to be 
looked into. It has nothing to do with religious beliefs and/or 
anything else, as far as I am concerned.
    Mrs. Morella. No. I believe that you are motivated, 
obviously, because you care deeply about it, but I just 
wondered does the church have a stand on it?
    Ms. Weathers. Can I say something as a parent, and just as 
a parent?
    Mrs. Morella. OK.
    Ms. Weathers. I feel that this issue transcends all social 
and political and religious backgrounds. I think this is our 
children, and we need to really address the issue that this is 
our children, and this is our future generation here. This 
doesn't have to deal with anything other than our children.
    Mrs. Morella. I believe your motivation, I truly do. I'm a 
mother, myself. But I am curious still about whether or not 
Scientology----
    Mr. Wiseman. Sure. I'm delighted to answer your question. I 
have been a Scientologist for 32 years. Every Scientologist I 
know is very concerned about human rights abuse, but that's not 
really the issue from our point of view and why we're here. Our 
concern is that parents aren't being given all the information 
and the choices. They're not given informed consent on the 
issue. That's really the concern, Congresswoman.
    Mrs. Morella. Thank you.
    Thank you, Mr. Chairman.
    Mr. Burton. Before I yield to Mr. Gilman, let me just say--
because we're going to have some votes on the floor--we had 1 
in 10,000 children, according to CDC, that were autistic a 
decade or so ago. We now have 1 in 250 children or more that 
are autistic today. We've had a 40-fold increase, 40 times 
increase in the number of children that are autistic in 
America. And there are a great many scientists and doctors who 
believe that some of the contents, including mercury, in 
vaccines are a major contributing factor. We have an epidemic.
    The young lady, Ms. Weathers, talks about our kids and our 
future and what it is going to do to our society. Put a pencil 
to the amount of money it is going to take to take care of 
children today who are going to be adults in 15 years who are 
autistic, who can't get a job, who can't function properly in 
society. You're talking about billions, maybe trillions, of 
dollars, and we need to find the answers and get it 
straightened out. And if mercury, as I suspect, is a major 
cause, then we damn well better get it out of our vaccines.
    Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I'm curious, Dr. Block--and I regret I had to go to another 
meeting and couldn't be here for your testimony--has there been 
any long-term study of the long-term effects of utilizing 
Ritalin?
    Dr. Block. No, there has not. The drug manufacturers, 
themselves, say there are no long-term studies. The National 
Institutes of Health, when they had their conference, stated 
that most drug trials were very short, up to 3 months, yet 
children are placed on these drugs for years and years without 
the knowledge that we need to know if they are safe.
    Mr. Gilman. Sounds like we have to undertake that study.
    Background material provided to our committee cites 
American Academy of Pediatrics data that estimates 4 to 12 
percent of the children in the United States have some form of 
ADHD. Is this estimate applicable to other countries like 
Japan, or is this uniquely an American problem?
    Dr. Block. This is uniquely an American problem. Of all 
Ritalin in the world, 90 percent is sold in the United States. 
I have seen families from all over the world at my medical 
clinic, and those who have come from other countries always 
have an American connection--they were in an American school 
and told their child needed to be drugged. If they moved them 
to a British school, they were told their child was fine. I've 
seen this story occur over and over again.
    Mr. Gilman. When educators observe potential ADMD [sic] 
cases, how much weight is given to non-ADMD [sic] factors such 
as level of physical activity, diet, environment, and other 
possible disorders?
    Dr. Block. Usually there's not anything given to that. What 
is usually done is the teacher fills out a checklist describing 
behaviors that the child has at school, and parents may be 
asked to fill out this check list. The parents that bring their 
children to my office have told me that their doctor, in most 
cases, never did a physical exam, never listened to their 
child's heart, even though many of the side effects of the 
drugs can affect the heart. They're not looking for other 
problems, not looking for allergies, learning problems, thyroid 
problems, anything physical or educational that might be wrong 
with the children before labeling and drugging them.
    Mr. Gilman. In previous, unrelated hearings covering the 
war on drugs, the Drug Enforcement Administration, DEA, has 
testified that many adolescent takers of Ritalin often poured 
more supply and sell it to customers through an illegal 
secondary market. Is this a significant problem? I address that 
to any of our panelists?
    Dr. Block. This is a significant problem, and there have 
been reports that indicate that Ritalin is the most abused drug 
in high school and colleges. And there are other drugs like 
Adderol. I don't want to just focus on Ritalin. There are many 
other amphetamine or amphetamine-type drugs that are abused on 
the street in the same way.
    Mr. Gilman. And, in general, the percentage of the student 
body taking Ritalin or similar drugs is smaller in parochial 
schools than the same percentage in public schools. Why do you 
think that's the case?
    Dr. Block. Well, I can't speak to exactly why, but from 
what I've heard there is a great deal of discipline in many 
parochial schools, but I'm also seeing a change there where the 
drugging of children is increasing in private and religious 
schools to a great extent, as well.
    Mr. Gilman. Do any of our panelists want to add any 
comments to the questions I've just asked?
    Mr. Wiseman. Only, Congressman, that last year, or perhaps 
the year before, there was legislation proposed, and I believe 
passed, by Congressman Henry Hyde's committee that dealt with 
this issue of the abuse of Ritalin in schools. The DEA was very 
concerned about it. I don't recall the number of that 
legislation or its name, but I think that was in the year 2000. 
Legislation was actually proposed and passed, I believe in this 
Body, that dealt with that issue.
    Mr. Gilman. Ms. Presley, did you want to comment?
    Ms. Presley. I don't know the statistics and the 
formalities of what exactly--this is more for you two, I think.
    Mr. Gilman. And Ms. Weathers, did you want to comment?
    Ms. Weathers. No, not at this time. I don't know the 
statistics.
    Mr. Gilman. All right. And, Dr. Block, do you have any 
final statement you'd like to make?
    Dr. Block. Well, as I think all of us have consistently 
stated, we're very concerned about the abuse of these drugs in 
our children and the fact that parents are not given informed 
consent and not given all the options to look at all the 
possible problems that their children might have to correct 
those problems and not drug them. I think that's what we'd like 
to see changed.
    Mr. Gilman. I want to thank our panelists for being here 
today and giving us your testimony.
    Thank you, Mr. Chairman.
    Mr. Burton. We have 8 minutes and 33 seconds on the clock. 
I have a couple more questions for this panel, and then we'll 
dismiss them, unless the other panelists have some questions. 
We have one vote on the floor, and then if you could come back 
we'd appreciate it.
    Let me just say that I really appreciate your being here. 
One thing I would like to clear up is, although there are 
people here who are members of the Church of Scientology, there 
are a lot of other people that you work with that are not 
members that share the same views; am I correct on that?
    Ms. Presley. Yes, sir.
    Mr. Wiseman. We work with allied groups across the country.
    Mr. Burton. Dr. Block, you're not a Scientologist are you?
    Dr. Block. No, sir, I'm not.
    Mr. Burton. Ms. Weathers, you're not a Scientologist, are 
you?
    Ms. Weathers. No. Absolutely not.
    Mr. Burton. Well, I just hope that there's no stigma 
attached to the people at this hearing because of their 
religious beliefs. We're here today to find out if--find 
evidence to find out if there is an abuse of Ritalin and other 
drugs of that type and whether or not they are habit forming 
and whether or not they are absolutely necessary and whether or 
not parents are getting adequate information so they can make 
an informed decision. Those are the major issues that we're 
looking at here today, and I appreciate it very much.
    I will have additional questions for this panel that I'd 
like for you to submit in writing, and any legislative 
proposals that you think need to be made, we'd like to have 
that in writing. We can't guarantee that all of them are going 
to be enacted. You know, the legislative process is like 
watching sausage being made. You don't want to watch it. But we 
will take a look at all of that.
    Anything else from the committee before we recess?
    [No response.]
    Mr. Burton. OK. We stand in recess until the call of the 
gavel, and we'll go to the next panel when we come back.
    Ms. Presley. Thank you very much.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    We'll now hear testimony from the second witness panel, Dr. 
Richard K. Nakamura. He is the acting director of the National 
Institute of Mental Health, National Institutes of Health, U.S. 
Department of Health and Human Services.
    Unfortunately, the Department of Education's witness was 
unable to be here today.
    Would you please stand so you can be sworn, sir? Do you 
swear to tell the whole truth and nothing but the truth so help 
you God?
    Dr. Nakamura. I do.
    Mr. Burton. Thank you.
    I presume, after hearing the testimony of the other 
witnesses and the questions, you have an opening statement? 
Would you proceed?

  STATEMENT OF RICHARD K. NAKAMURA, ACTING DIRECTOR, NATIONAL 
                   INSTITUTE OF MENTAL HEALTH

    Dr. Nakamura. Thank you, Mr. Chairman and members of the 
Committee on Government Reform, for the opportunity to discuss 
an important medical condition here today. I am Richard 
Nakamura, the acting director of the National Institute of 
Mental Health. Professionally, I am a brain scientist, also 
called a neuroscientist.
    The National Institute of Mental Health is one of the 
National Institutes of Health. We are the Federal health 
institute responsible for research to reduce the burden of 
mental illness and other behavioral disorders. We take that 
responsibility seriously.
    Ultimately, this hearing is about our children and helping 
them live full, productive lives.
    I come here before you both as a scientist and as a parent 
of children, some of whom have received services themselves.
    Permit me to provide some background information from the 
neurosciences. We used to think that the brain simply unfolded 
according to strict genetic instructions, and those 
instructions, like body growth, ended in late adolescence and 
the brain was done. From there it was thought that it was all 
downhill and one could only lose neurons. But now we know that 
the brain is actively constructed from birth, and even before 
birth, by an interaction of genes with behavior and the 
environment.
    On the way, the brain goes through periods of massive 
growth and significant pruning or cell loss. This is normal. We 
know that that pruning occurs in neurons that do not get 
incorporated into behavioral programs of the brain; thus, we 
lose neurons that are not used.
    Genes provide the scaffold for this growth, but the actual 
survival of neurons and their connections are determined by our 
environment and our behavior. This has important implications 
for disorders such as ADHD. Parenthetically, we also know that 
there are some new neurons that develop in the brain every day 
of life through to at least the age of 72 to help us older dogs 
learn new tricks.
    What is ADHD, or attention deficit hyperactivity disorder? 
There are two major components. First, there is an inattention 
or distractibility component, and this is the primary feature 
in ADD. Then there is a hyperactivity or impulsivity component. 
For a diagnosis of ADHD, the condition must be of long 
duration, it must be developmentally inappropriate, it must 
cause significant impairment, and it must be present in two or 
more settings of a child's life--for instance, at least school 
and home.
    When diagnosing ADHD, a clinician must be very careful to 
distinguish between that disorder and several other conditions 
that may look similar, such as sensory or learning disorders, 
anxiety or bipolar disorders, and many others that have already 
been mentioned here.
    An adequate workup cannot be done in 15 minutes. In this 
regard, I have the statement from the American Academy of 
Pediatrics, which has a very good guideline for how to do an 
adequate workup of ADHD, and I would like to submit this and 
some other documents for the record.
    Mr. Burton. Sure, without objection.
    Dr. Nakamura. Of children, 3 to 5 percent are diagnosed 
with ADHD, with boys being much more affected than girls. While 
some have questioned the reality of ADHD because we do not have 
a biological marker for the condition, the reality of 
individuals that cannot focus on a task for developmentally 
appropriate periods of time and show significant learning and 
job performance deficits as a result have convinced most 
physicians and scientists, just as most are convinced that 
other behavioral disorders without clear biomarkers, such as 
autism and schizophrenia and pain, are real.
    In these cases, it is the clarity and consistency of the 
behavioral syndrome or the effectiveness of interventions that 
is convincing. Many large professional and scientific bodies 
have looked into the topic of ADHD and have concluded that it 
is real. Some of these groups, for the record, are: U.S. 
Surgeon General, the American Medical Association, the American 
Psychiatry Association, the American Academy of Child and 
Adolescent Psychiatry, the American Psychological Association, 
and the American Academy of Pediatrics. Also, in 2002 an 
international consensus statement on ADHD was published by a 
large group of scientists who indicated their belief that the 
evidence for ADHD was very well justified and scientific.
    What about the outcomes of untreated ADHD? There is an 
initiation of a trajectory because children who cannot attend 
or are hyperactive have great trouble learning. Since learning 
is progressive and since our brain structures are determined by 
our behavior and learning, we need an active intervention to 
keep healthy outcomes on track. Untreated, ADHD leads to 
increased medical utilization, school failure, poor social 
relationships, antisocial activities, use of harmful 
substances, brushes with the law, and serious accidents.
    So how is ADHD treated? Because ADHD is a chronic problem 
and treatments need to work for long periods, we recommend 
early detection and beginning with behavioral approaches, 
including parent and child training. Now, remember this is 
after a diagnosis has been reached and all other possibilities 
have been eliminated through the appropriate differential 
diagnosis.
    Obviously, if behavioral approaches work, they should be 
employed with occasional booster training sessions; however, in 
many cases this will not result in improvement, so then we 
recommend a trial of stimulant medication. In our experience, 
stimulant medications are highly safe and effective for 
properly diagnosed children and adults.
    No choice of a stimulant medication should be made without 
careful consultation between parents, the children, and 
clinicians. We do not believe that teachers--other than 
potentially making a suggestion that the child has a problem 
and it might be ADHD. Teachers should not be diagnosing nor 
recommending treatment for the condition.
    When stimulant medications are used, there should be a 
long-term followup to ensure the continuing efficacy of 
treatment, proper dosing, and proper adherence. What this means 
for children is that a trajectory that can lead to school 
failure--I'm sorry, there's one other important point to make.
    We have estimated and our data suggests that behavioral 
and/or medication treatment therapies will help 90 percent of 
children with ADHD. What this means for children is that a 
trajectory that can lead to school failure and social 
difficulties can be interrupted and replaced by a trajectory 
that can lead to more normal behavior and therefore more normal 
brain and behavioral development.
    Mr. Burton. Excuse me, Dr. Nakamura. Would it be possible 
for you to summarize the rest of your statement so we can get 
to the questions, because----
    Dr. Nakamura. Sure.
    Mr. Burton. I want to get all of the substance of 
everything you have to say, and we will be--all the Members 
will be reading your statement.
    Dr. Nakamura. I have one more paragraph, if I can do that.
    Mr. Burton. OK.
    Dr. Nakamura. By intervening to keep a child's development 
on track, many ADHD children can be helped to normal, 
productive lives. That is the point of our efforts.
    I would like to say a final word about science. Science is 
a procedure that helps us learn the truth about interventions 
and outcomes by systematically testing ideas about the world 
and about human beings. This is the best way we know to learn 
whose ideas are right and how to keep us from continuing 
therapies that do not work or actually cause harm. Ultimately, 
we need to move away from anecdotes to scientific tests of 
ideas if we are to have the best and most helpful lives.
    Thank you.
    Mr. Burton. Thank you, Doctor.
    [The prepared statement of Mr. Nakamura follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.028
    
    [GRAPHIC] [TIFF OMITTED] 83516.029
    
    [GRAPHIC] [TIFF OMITTED] 83516.030
    
    [GRAPHIC] [TIFF OMITTED] 83516.031
    
    [GRAPHIC] [TIFF OMITTED] 83516.032
    
    [GRAPHIC] [TIFF OMITTED] 83516.033
    
    [GRAPHIC] [TIFF OMITTED] 83516.034
    
    [GRAPHIC] [TIFF OMITTED] 83516.035
    
    [GRAPHIC] [TIFF OMITTED] 83516.036
    
    Mr. Burton. There are about 6 million children in America 
that are using Ritalin or substances very similar to that. Do 
you think they all need that?
    Dr. Nakamura. We have heard different numbers. We don't 
know exactly how many children are being prescribed, but we 
have heard the number in the range of 3 million as opposed to 
6; 6 might include all the adults.
    Mr. Burton. Well, Pat----
    Dr. Nakamura. But I won't dispute it.
    Mr. Burton. Pat Weathers, who testified, she said that her 
child was fine at home but at school didn't pay much attention 
and was looking out the window and that sort of thing, like I 
did when I was a child, because I wanted to play baseball or, 
as I got older, chase the girl down the street. And she said 
that the teacher had a checklist and went through the checklist 
and called her in with the principal and said, ``Your child has 
attention deficit problems, and we think that he ought to be 
treated.''
    They went to the doctor, and she said the doctor looked at 
that, spent less than 15 minutes with them, and prescribed 
Ritalin.
    Now, according to your testimony, that's not the way it 
should be done; is that correct?
    Dr. Nakamura. Given the description, because I don't know 
the particulars of this case, but, given the description, no, 
that is not the way it should be done.
    Mr. Burton. I mean, I listened to your testimony very 
closely, and you said that you ought to look at school, you 
ought to look at home, there ought to be consultation, there 
ought to be a whole lot of things that take place before you 
start using Ritalin. Isn't that what you said?
    Dr. Nakamura. Yes.
    Mr. Burton. Yes. We have heard a lot of stories about 
teachers saying this child has an attention deficit problem, 
and they do this checklist, and they send them to doctors, and 
the Ritalin is just a fait accompli. They're going to give it 
to them when they go there. You don't think that's right, do 
you?
    Dr. Nakamura. The guidelines of the American Academy of 
Pediatrics and Institute's position are that you cannot make 
the diagnosis and you should not be writing a prescription with 
that little information.
    Mr. Burton. Well, has our health agencies informed our 
educational system around the country or State superintendents 
of public instruction or local school boards that there are 
certain things that should be followed to give them a diagram 
on what they should do before they start giving children 
Ritalin and sending them to the doctor?
    Dr. Nakamura. The information is certainly available on Web 
sites. We have not, as an institute, sent information directly 
to all the schools in the country.
    Mr. Burton. Well, let me just tell you a story. One of the 
doctors, one of the most important doctors here on Capitol 
Hill, I said, ``Did you know there's mercury in the vaccines 
you're giving us for flu?'' And he said, ``No, there's not.'' 
And so I took the insert out and I gave it to him and he looked 
at it and said, ``Well?'' And I said, ``Well, thimerosal has 
mercury in it.'' Well, he didn't know that. The doctor didn't 
know that.
    Now, if we're spending all this money on our health 
agencies and you have a criteria that's supposed to be used for 
children before they go on these mind-altering drugs, then why 
in the heck doesn't the schools know about it, because they 
don't. Many of the doctors don't even know that.
    I want to talk to you about neurons. And I would submit to 
you that our health agencies for a very low cost could put it 
on their e-mail site and they could send a notification out to 
all State boards of education and local school boards and say, 
``On our e-mail site we have the criteria that should be 
followed before a child starts taking Ritalin or other drugs of 
this type.'' I don't know why you don't do it. It makes sense 
to me, and it would save the legislative branch a lot of time 
and trouble.
    Now I want to talk to you a little bit about the neurons 
you were talking about. You talked about the neurons growing 
and being replaced and replicated on a very regular basis. Do 
you think mercury has an adverse effect on neurons?
    Dr. Nakamura. I honestly don't know. I believe that mercury 
is clearly a substance you don't want in the body.
    Mr. Burton. Let me ask you this. Thimerosal--most of the 
vaccines we're sending overseas to all these kids in Third 
World country still has it in there, and they're getting it out 
gradually here in the United States, but not as quickly as they 
ought to because we've had this absolute epidemic of children 
that are autistic, from 1 in 10,000 now to 1 to 250, and a lot 
of people say, ``Well, that figure, 1 in 10,000 might be way 
off,'' but everybody acknowledges we've got a big, big problem, 
even if that figure is incorrect. I don't think it is.
    But we had some scientists from Canada send us a video--
which I want you to give a copy to the doctor. Have you seen 
that video?
    Dr. Nakamura. I don't believe so.
    Mr. Burton. It shows the neurons--there's a sleeve on the 
neurons, is there not? Isn't there a sleeve?
    Dr. Nakamura. Right.
    Mr. Burton. It shows what happens----
    Dr. Nakamura. Myelin.
    Mr. Burton [continuing]. To the sleeve on the neurons when 
a very minute amount of mercury is introduced into the close 
proximity to it. It just destroys it. It just destroys it, and 
ultimately it destroys or damages severely the neurons. Would 
you say that would have an impact on the brain of that child?
    Dr. Nakamura. Yes. It certainly depends on the form of the 
mercury, but----
    Mr. Burton. Wait. You say the form of the mercury.
    Dr. Nakamura. There are some forms of mercury----
    Mr. Burton. I know. There's two different kinds that we're 
talking about.
    Dr. Nakamura. Correct.
    Mr. Burton. Has there been testing done to show that one 
has an impact that the other one doesn't on neurons?
    Dr. Nakamura. I could not tell you about that result. I do 
know that one form is much more destructive than the other 
form, and that thimerosal contains the less-destructive form; 
however, I would agree that I would not like to see mercury----
    Mr. Burton. Well, the hearings we've had--and I've had 
scientists and doctors of your caliber from all over the world, 
and the thimerosal and the mercury in these vaccines is very 
damaging and they believe it contributes to neurological 
problems in these kids. And you said yourself no mercury should 
be introduced into the human body, and yet they're doing it 
every day, and they did it to me, and they did it to every 
Member of Congress that wanted to get a shot for flu.
    Dr. Nakamura. Yes.
    Mr. Burton. Why is that?
    Dr. Nakamura. I can't offer you an explanation.
    Mr. Burton. You're with the Department of Health here.
    Dr. Nakamura. I am with the Department of Health and Human 
Services, but the Centers for Disease Control and the FDA are 
the controlling organizations.
    Mr. Burton. Are they part of the Department of Health?
    Dr. Nakamura. Yes.
    Mr. Burton. Do you guys have any--do you ever talk?
    Dr. Nakamura. They don't ask my advice on the issue of 
vaccines.
    Mr. Burton. So how do we get--I mean, how do we get the 
message down to them besides going down there with a ball bat 
and hitting them in the head?
    Dr. Nakamura. I will be happy to pass this information on 
through the Department, through the appropriate----
    Mr. Burton. I think they already know this.
    Dr. Nakamura. I believe they do, too, sir.
    Mr. Burton. Yes, they've been to my committee before, and 
they're going to be back here again, and they think they're 
going to get rid of me when I----
    Dr. Nakamura. You are very, very clear.
    Mr. Burton [continuing]. When I'm not chairman any more, 
but I'm going to be here and I'm going to probably be a 
subcommittee chairman, and I can guarantee you, if I am, I'm 
going to be on the Health Subcommittee, so I'm going to have 
you guys back again and again.
    Now let's talk about the cocaine. Is there any relationship 
between--and I'm going to go to my colleagues as soon as this 
question is over. I've run way over, so excuse me.
    Is there any connection or is there any relationship 
between cocaine and Ritalin? Do they have any of the same 
properties?
    Dr. Nakamura. Yes. The stimulant properties of both derive 
from similar chemical properties, and----
    Mr. Burton. If a person who has wanted to snort cocaine, if 
they ground up Ritalin and made it into a powder form would it 
have a similar effect on their brain?
    Dr. Nakamura. It would probably not do as much for them; 
however, yes, they would get a high from ground up 
methylphenidate.
    Mr. Burton. So they're similar?
    Dr. Nakamura. They're similar in that sense, yes.
    Mr. Burton. Could you become addicted to Ritalin ground up 
and snorted like cocaine?
    Dr. Nakamura. That would increase the addiction potential 
of the methylphenidate, yes.
    Mr. Burton. OK. So why is it that children taking Ritalin 
might not become addicted and become a more likely prospect for 
long-term addiction to more strong----
    Dr. Nakamura. There are a couple of things going on. One is 
that our experience has been that this is not happening; that 
most children are using this appropriately; that pharmacies and 
physicians are being fairly careful about their prescribing 
practices, so they don't allow automatic renewals of 
prescriptions; and that the number of pills are counted to make 
sure of the number of pills being taken by the child----
    Mr. Burton. I understand, but a lot of children get this in 
early years and they spread it out, maybe all the way through 
high school. Is there a possibility of addiction?
    Dr. Nakamura. So far, when we have looked, there is either 
no increase in addiction or slightly reduced level of addiction 
for kids who are on medications compared to kids who are not on 
medications.
    Mr. Burton. You've done long-term studies on this?
    Dr. Nakamura. We have done studies that have varied in the 
amount of time from 14 months to 20-something years.
    Mr. Burton. Is that right? And yet you say the properties 
are very similar to cocaine?
    Dr. Nakamura. Yes.
    Mr. Burton. I don't understand that disparity there. Maybe 
you can explain that in the second round.
    Let me yield to my colleague, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Dr. Nakamura, welcome to our panel.
    Dr. Nakamura. Thank you.
    Mr. Gilman. In your testimony you stated that, ``Good 
treatment begins with accurate diagnosis, which can best be 
achieved through implementation of state-of-the-art diagnostic 
approaches in practice settings. We know through research that 
a clinically valid diagnosis of ADHD can be reached through a 
comprehensive and thorough evaluation done by specially trained 
professionals using well-tested diagnostic interview methods.'' 
That's your testimony, is it not?
    Dr. Nakamura. Yes.
    Mr. Gilman. Basically, your testimony implies that doctors 
don't need to do any evaluation of possible biological issues 
such as thyroid or heavy metal toxicities, things for which 
there are objective clinical tests, rather than the subjective 
interview method. Doesn't it worry you that by not doing good 
medicine--in other words, biomedical evaluation--children with 
biological issues are simply having the symptoms suppressed 
rather than resolved? Does that concern you at all?
    Dr. Nakamura. By stating that a proper workup be done, we 
meant that proper differential diagnoses also be done, and we 
recommend the American Academy of Pediatrics clinical practice 
guidelines, which make it very clear that you need to do an 
adequate differential diagnosis, so you eliminate other 
possibilities.
    Now, there are, I think, reasonable questions about whether 
or not some other factors may produce these kinds of symptoms, 
so I believe between ourselves and the earlier panel there may 
be disagreements about how much allergies can participate in 
this, but we do recommend that those be checked before making a 
recommendation and a diagnosis of ADHD.
    Mr. Gilman. So there should be a good biomedical 
evaluation? Is that what you're saying?
    Dr. Nakamura. Yes.
    Mr. Gilman. You state that ADHD is one of the most-
researched conditions in children's mental health. Just how 
much is being spent on that kind of research at NIMH and NIH?
    Dr. Nakamura. Well, while more than just NIMH is spending 
money, I can tell you that last year NIMH spent $53 million 
studying ADHD.
    Mr. Gilman. Is any of this research evaluating biological 
issues such as mercury or lead toxicity that our chairman has 
indicated?
    Dr. Nakamura. None of this at the moment is looking at lead 
toxicity and mercury.
    Mr. Gilman. Is there any reason why you're not looking at 
it?
    Dr. Nakamura. We have, as our process, a peer-reviewed 
competition for grants. We would be quite interested in getting 
an application which tried to look at the contributions of both 
lead and mercury to ADHD.
    Mr. Gilman. Do you need an application to undertake that 
kind of a study?
    Dr. Nakamura. Well, we've found that, in order to get 
studies done well and assume excellence in science, getting 
them in through a peer review process is very important. If you 
have--if any of you have investigators who have indicated that 
they are interested in pursuing this study----
    Mr. Gilman. Well, we're interested in this committee. Do 
you need an application to dig into that kind of an approach?
    Dr. Nakamura. We need an application to make sure that the 
research that is proposed will answer the question.
    Mr. Gilman. Don't you initiate any studies on your own? Do 
you have to wait for applications if there is some problem out 
there?
    Dr. Nakamura. We can initiate studies on our own.
    Mr. Gilman. Well, I suggest that maybe you ought to take a 
look at the mercury or lead toxicity on your own rather than 
waiting for an application.
    Is any of the research evaluating alternative therapies 
such as acupuncture, neurofeedback, massage, cranial 
sacraltherapy, and special dietary approaches--is there any 
research now looking at any of those?
    Dr. Nakamura. I understand that the National Center for 
Complementary and Alternative Medicine is pursuing all of 
those.
    Mr. Gilman. They are----
    Dr. Nakamura. Yes.
    Mr. Gilman [continuing]. Undertaking that?
    I just have one or two other questions, Doctor. In a 1995 
background paper from the Drug Administration, DEA, the 
following statement was made. ``It has recently come to the 
attention of the DEA that CIBA/Geigy, the manufacturer of 
Ritalin marketing under the brand name Ritalin contributed 
$748,000 to CHADD from 1991 to 1994. The DEA has concerns that 
the depth of the financial relationship with the manufacturer 
was not well known to the public, including CHADD members that 
have relied upon CHADD for guidance as it pertains to the 
diagnosis and treatment of their children.''
    In a recent communication from United Nations International 
Narcotics Board, INCB, expressed concern about non-governmental 
organizations and parental associations in the United States 
that are actively lobbying for the medical use of Ritalin for 
children with ADHD. The U.N. organization further stated that 
financial transfer from a pharmaceutical company with the 
purpose to promote sales of an internationally controlled 
substance would be identified as hidden advertisement and in 
contradiction with the provisions of the 1971 convention.
    In fact, a spokesman for CIBA/Geigy stated that ``CHADD is 
essentially a conduit for providing information to the patient 
population.'' That's a direct quote from them. The relationship 
between CIBA/Geigy, which is now Novartis, and CHADD raises 
serious questions about CHADD's motive in proselytizing the use 
of Ritalin.
    This is what DEA had to say. This same DEA paper states 
that CHADD, in conjunction with the American Academy of 
Neurology, submitted a petition to reschedule Ritalin from 
Schedule II to Schedule III under the Controlled Substances Act 
because controls are unduly burdensome for the manufacturer and 
for physicians who prescribed it and patients who needed it. 
CHADD denied that the financial contributions received from 
CIBA/Geigy have any relationship to their action.
    And the DEA went on to note that of particular concern to 
them was that most of ADHD material prepared for public 
consumption by CHADD and other groups and made available to 
parents does not address the above potential or actual abuse of 
Ritalin. Instead, it is portrayed as a benign, mild substance 
that's not associated with abuse or any serious side effects.
    The DEA went on to note in their report, ``In reality, 
however, there is an abundance of scientific literature which 
indicates that Ritalin shares the same abuse potential as other 
Schedule II stimulants. Case reports document that Ritalin 
abuse, like any other Schedule II stimulant, can lead to 
tolerance and severe psychological dependence. A review of the 
literature and examination of current abuse and trafficking 
indicators reveals a significant number of cases where children 
are abusing Ritalin.''
    So what is your comment with regard to DEA's report?
    Dr. Nakamura. The key comment is it's very important to 
realize that when ADHD is properly diagnosed there seems to be 
very little problem with substance abuse and even diversion. 
The GAO recently put out a report on attention disorder drugs 
and reported that there were few incidents of diversion or 
abuse identified by schools.
    And it is the experience that we have so far which 
indicates that there is not an increase in abuse by those with 
ADHD who are taking Ritalin; rather, there is either a normal 
amount or a reduced amount of abuse by those kids.
    We do know that untreated ADHD kids go on to abuse drugs at 
high proportions.
    Mr. Burton. The gentleman's time has expired.
    Mr. Gilman. I just have one more.
    Mr. Burton. Sure. OK. Go ahead. Yield to me for just 1 
second?
    Mr. Gilman. Sure.
    Mr. Burton. Was that the only study that was done on that, 
that said that there was no increased abuse?
    Dr. Nakamura. No. There were three studies.
    Mr. Burton. OK. Tell me about the other two studies real 
quick. Weren't there other studies that showed that there was 
increased use?
    Dr. Nakamura. There was one study----
    Mr. Burton. And did the--there was one study. You didn't 
mention that. It's interesting that you mention the one that 
says what you want but you don't mention the one that says what 
you don't want. This Congress up here doesn't want you to come 
up here and shade things the way that the health agencies want. 
We want you to tell the truth for the American people. It 
really bothers me that you guys do this all the time. You do it 
all the time. Tell the whole truth, not just the part that you 
want told.
    And the pharmaceutical companies--Congressman Gilman just 
made a strong point. The pharmaceutical companies fund an awful 
lot of this stuff, these studies and other things that you're 
talking about. You said the GAO said that there was no problem 
with this. You didn't quote the DEA. The DEA is the agency that 
we charge to go after the drug dealers and the drug abusers and 
the drug problems in this country. Why is it you didn't quote 
the DEA instead of just the GAO study that you asked for?
    Dr. Nakamura. I had just been given the information about 
DEA, and----
    Mr. Burton. You mean to tell me you guys don't have access 
to that over there?
    Dr. Nakamura. No. I just pointed out that there was other 
information, as well.
    Mr. Gilman. Thank you. I'll yield in just a moment. But, 
Doctor, are you concerned about the relationship between CHADD 
and the pharmaceutical company? Is there any concern by NIH 
with regard to that?
    Dr. Nakamura. That is not an area of--I don't believe that 
the NIMH has a right to interfere with that transaction. What 
we try and do at NIMH, is very carefully make certain that 
there is no interaction with drug companies that could 
influence our decisions.
    Mr. Gilman. But here we have a drug company that is 
influencing a parental group, and that drug company has some 
financial motivation. Isn't there any oversight by NIH of that 
kind of a relationship?
    Dr. Nakamura. No, there's no oversight that I'm aware of, 
by NIH. NIH's job is to do good research, and that's what we 
try and do.
    Mr. Gilman. Well, I hope that NIH would do more than just 
do research, and make certain that the information given to the 
public is factual and not motivated by any financial interests.
    I'll be please, Mr. Chairman, to yield the balance of my 
time.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Dr. Nakamura, a study conducted at Georgetown 
found that children with ADHD are seven times more likely to 
have food allergies than other children. Isn't it true that 
children in an allergic state would be adversely affected in 
their ability to focus and concentrate? What has NIMH and NIH 
done to evaluate the correlation between food allergies and 
attention disorders?
    Dr. Nakamura. My understanding is that we have had some 
earlier studies in which we looked for allergies as related to 
ADHD and other kinds of externalizing or disruptive behavior 
disorders and found that a small proportion, about 5 percent, 
could be accounted for by those allergies. And certainly we 
believe that, where they exist, you take care of those before 
you develop a diagnosis.
    Mr. Horn. Are you concerned that children may be 
misdiagnosed with ADHD?
    Dr. Nakamura. Absolutely.
    Mr. Horn. Well, that's good to know.
    Dr. Nakamura. We would very much like to see children 
properly diagnosed. In our current system, physicians are 
compensated inadequately for doing a full work-up. It is hard 
for physicians, as we understand it, to get more than a certain 
amount of time and money per patient. This might have a 
tendency to cause them to move a little too fast and maybe not 
have enough time to come up with alternative conclusions about 
a disease process.
    Mr. Horn. Dr. Nakamura, in the Novartis PDR in Ritalin 
there's a warning that Ritalin should not be used in children 
under the age of 6 years because the safety and efficacy had 
not been established. I'm troubled that the National Institutes 
of Health would offer to pay parents of 3-year-olds over $600 
to test Ritalin on their children, and there's apparently a--
let's see here--it was the APA meeting quote, and is the 
Federal Government testing psychotropic drugs in children under 
the age of 6?
    Dr. Nakamura. Let me tell you how this study is being 
conducted.
    Mr. Horn. Go ahead.
    Dr. Nakamura. Because of the reports that so many children 
are being provided with Ritalin at younger ages, the National 
Institute of Mental Health decided that it needed to do a study 
on the safety of such drugs at those lower ages. Our review 
board, or IRB looked at this issue very carefully, and we did 
the following. We have run the most rigorous study possible to 
exclude children from this study in the sense that we do a very 
vigorous examination of whether or not there are alternative 
possibilities for explaining the behavior of the children.
    We require that the children go through a full behavioral 
therapy session that is really a set of sessions before they 
are accepted for the trial, and only then is there a final 
getting the parents' permission to go ahead with a trial of 
Ritalin.
    Mr. Horn. How many children are under 6 years of age?
    Dr. Nakamura. I believe that the design is to get 100 
children.
    Mr. Horn. In your testimony you talk about the studies that 
have been conducted on individuals with ADHD have ``less brain 
electrical activity and show less reactivity to stimulation in 
one or more of these regions.'' Are you still standing by that? 
Can you please tell us if any of these tests were conducted on 
individuals diagnosed with ADHD who had never been treated with 
psychotropic drugs?
    Dr. Nakamura. In those studies, no. We are about to see a 
study come out in which that specific comparison has been made.
    Mr. Horn. Please explain how the drugs can affect these 
same activities in the brain.
    Dr. Nakamura. Pardon me. I don't understand.
    Mr. Horn. Please explain how the drugs can affect these 
same activities in the brain.
    Dr. Nakamura. I'm sorry. It's--which same activities in the 
brain?
    Mr. Horn. We'll submit it to you and put it at this point 
in the hearing record.
    Dr. Nakamura. I apologize for not understanding.
    Mr. Burton. He's talking about the brain activity, less 
brain electrical activity.
    Dr. Nakamura. And the drug stimulating it?
    Mr. Burton. Yes. He's talking about how would it affect it.
    Go ahead.
    Dr. Nakamura. OK. So let me explain what we believe is 
going on with stimulant medications. That is, that certain 
portions of the brain show reduced activity compared to normal 
children, and this is in the area of executive function, 
particularly in the frontal lobes.
    Unlike an earlier statement, it isn't because blood is 
going slower. Blood is going at the normal rate. It is the 
activity and the oxygen pickup of those neurons which is 
different, which means that the frontal lobes aren't using as 
much energy as those in normal. And, a small amount of Ritalin, 
selectively increases the amount of energy and the activity of 
neurons in the frontal lobes, which provides the executive 
function these kids need in order to control their behavior 
better.
    Mr. Horn. I yield back my time to the chairman.
    Mr. Burton. Thank you, Mr. Horn. We are not through 
questioning Dr. Nakamura, so you'll have another chance.
    Mrs. Davis.
    Mrs. JoAnn Davis of Virginia. Thank you, Mr. Chairman.
    If I just heard you correctly, you said the Ritalin speeds 
up the activity in the frontal lobe. Did you hear me give the 
explanation earlier to the first panel about the blood flow in 
the frontal lobe of the brain?
    Dr. Nakamura. Yes.
    Mrs. JoAnn Davis of Virginia. Can you comment on that?
    Dr. Nakamura. Yes. When you do certain studies in order to 
look at the activity of the brain, what it actually does is 
looks at the flow of oxygen through the brain, or sometimes 
called ``blood flow.'' What you're really concerned about is 
the activity of the neurons in the brain, and so it isn't so 
much a problem of slow blood, it's a problem of neural 
activity, for which the blood is a surrogate measure.
    What we have been finding is that frontal lobe activity in 
those with ADHD is reduced and that the Ritalin helps increase 
it. Because frontal lobes are responsible for executive 
function, that makes it easier for self control and for self-
directed activity to go on.
    Mrs. JoAnn Davis of Virginia. Based on that, and to go back 
to--I forget who asked the question about the possible 
addiction of Ritalin because it has similar characteristics of 
cocaine. It was my understanding that if you put a child--and 
I'd like you to comment on it--put a child on Ritalin who is 
not ADHD, it has a different effect on that child than the 
child who has ADHD. For instance, our son, when we put him on 
Ritalin, became normal, had normal behavior, not, you know, 
slowed down, dead, lethargic, or a zombie, or what have you, 
but actually became what you would call normal. But if you put 
a child who was not ADHD on Ritalin it was like giving them 
speed and they actually become the opposite and become hyper. 
Can you comment on that?
    Dr. Nakamura. In general, if children, normal children, use 
Ritalin at normal doses through normal pathways--that is, 
ingestion--they might have side effects of losing sleep and 
losing weight, but at those levels it shouldn't become 
addictive. And cocaine has much less addictive properties when 
ingested in a slow way. If you change the way it is delivered 
to the body, for example if you figure out a way of injecting 
it, a way of snorting it or sniffing it, that speed can 
increase the addictive properties.
    I understand that one of the things the drug companies are 
trying to do is create a form of methylphenidate which is less 
able to be ground up and used in any form other than the 
appropriate ingested form. So I believe the drug companies are 
trying to solve the problem, and the potential addictive 
properties if you misuse these chemicals.
    Mrs. JoAnn Davis of Virginia. Is there any validity to 
giving Ritalin to a child who is not ADHD and giving it to one 
who is, that there's difference in the behavior?
    Dr. Nakamura. I'd like to liken it to a bell-shaped curve 
in the sense that if performance is optimal at the peak of the 
curve for a normal child who is at the peak of the curve, 
you're going to push them past optimal performance. There may 
be some gains in terms of being able to stay up late or to do a 
short-term sports event, but there are more penalties to be had 
for those children. For those with ADHD, it appears that they 
are to the left of the curve and can be pushed up to normal 
performance by these drugs.
    Mrs. JoAnn Davis of Virginia. Thank you, Mr. Chairman. 
Thank you, Doctor.
    Mr. Burton. Judge Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Dr. Nakamura, you may have heard me this morning when I 
stated this morning or quoted one article in which the just-
retired Deputy Director of the Drug Enforcement Administration 
said that Ritalin is prescribed six times as much in the United 
States as in any other industrialized nation, six times as much 
as in Canada and Great Britain, other countries like that. Does 
that concern you?
    Dr. Nakamura. I certainly----
    Mr. Duncan. Do you know of any reason why that would make 
any sense at all? And also ``Time Magazine'' said that 
production of Ritalin has increased sevenfold in the past 8 
years, and that 90 percent of it is consumed in the United 
States--90 percent?
    Dr. Nakamura. Yes, this is of concern; however, the United 
States is often at the leading edge of a number of things, and 
so it is not completely surprising that it should be happening 
more in the United States. I do know that the use of Ritalin is 
up strongly in Europe and that it is perceived as being safe 
and effective, and the experience of the United States is being 
taken into consideration there.
    Mr. Duncan. I have an article here that says--an article 
last year in the ``Journal of the American Medical 
Association'' said that ``psychotropic medications have tripled 
in preschoolers ages 2 to 4 during the previous 5 years, the 
past 5 years. More disturbing is that during the last 15 years 
the use of Ritalin increased by 311 percent for those ages 15 
to 19, and 170 percent for those ages 5 to 14.'' That's from 
the ``Journal of the American Medical Association.'' And this 
``Insight Magazine'' that I quoted earlier this morning says 
that, ``Of approximately 46 million children in kindergarten 
through grade 12, 20 percent have been placed on Ritalin at 
some point.''
    Your figures are much, much lower than that.
    Dr. Nakamura. Yes. All the figures that we have on national 
prevalence of the use would make us very surprised if the 
figure surpassed 5 percent.
    Mr. Duncan. But you don't question these figures from the 
``Journal of the American Medical Association'' that say that 
psychotropic medications have tripled in preschoolers during 
the previous 5 years?
    Dr. Nakamura. We accept that and we are very concerned 
about what that means and how practice is being changed. Our 
previous director, Steve Hyman, was not convinced that we knew 
enough about diagnosis of some of our disorders at those ages 
to be prescribing medications. One of the----
    Mr. Duncan. It says in this article here, it says, ``This 
can be good news only for investors in the Swiss-based 
pharmaceutical company Novartis, which makes Ritalin. For 
instance, if the number of children taking the drug increased 
five-fold, so did the drug company's resultant profits and 
presumably stock value.''
    In a June 28, 1999, article, ``Dope and Kids,'' it was 
estimated that Novartis generated an increase in the stock 
market value of $1,236 per child prescribed Ritalin. Based on 
these evaluations, the drug company would have enjoyed an 
increased stock market value of approximately $10 billion or 
more since 1991.
    Dr. Nakamura. I can assure you that I haven't shared in any 
of that. It's----
    Mr. Duncan. You know, I know you meant that to be humorous, 
but I think this is very sad that we may be drugging or doping 
children and that it is all about helping a big drug giant make 
whopping profits.
    Let me ask you this. Getting more directly into your 
field--and I'm just curious about this. I know nothing about 
it--is there a real difference or are there significant 
differences between the brains of small boys and small girls?
    Dr. Nakamura. There are some differences.
    Mr. Duncan. The way they operate?
    Dr. Nakamura. Yes.
    Mr. Duncan. That might cause this? Because everybody said 
that there are many more small boys that are being prescribed 
this medication than small girls. Is there anything in your 
research on the brain that would help explain that?
    Dr. Nakamura. There's no question that the hormone 
differences between boys and girls, which increases at early 
adolescence, creates differences in behavior.
    Mr. Duncan. Early adolescence, though. Most of these kids 
are being prescribed this before early adolescence.
    Dr. Nakamura. Yes. There are hormone differences that start 
from birth, and one important point is that there are some who 
feel that attention deficit is much more prevalent in girls 
than we have measured, and that girls have simply not been 
identified because they are not seen as a problem. They simply 
sit in a classroom and fail quietly, whereas boys tend to act 
out at the same time, so they come to the attention of teachers 
and the girls are ignored.
    Mr. Duncan. My time is up, but let me just ask one more 
quick question. I spent 7\1/2\ years before coming to Congress 
as a State trial judge trying the felony criminal cases, the 
most serious criminal cases, and the first day I was judge they 
told me that 98 percent of the defendants in felony cases came 
from broken homes. And I went through, because 96 or 97 percent 
of the people plead guilty and apply for probation, I went 
through about 10,000 cases, and I can't tell you how many 
thousands of times I read, ``Defendant's father left home when 
defendant was two and never returned. Defendant's father left 
home to get a pack of cigarettes and never came back.'' And I 
can tell you this--crime goes back, it's caused by drugs and 
alcohol and running with the wrong crowd and all that, but you 
can trace all the felony crimes, with very few exceptions, back 
to this broken home situation.
    I remember reading one article that said that I think 90 
percent of these children that were being prescribed Ritalin 
were in homes from very successful two-parent families, but 
where both parents were working.
    I'm wondering--and I don't have any doubt that some 
children really benefit from Ritalin and really need it, but 
I'm also wondering is somebody studying where there may be some 
sort of a social cause of this, that maybe this is in some way 
a voice crying out for attention that they're not getting?
    Dr. Nakamura. There is----
    Mr. Duncan. Because there sure is a cause of the serious 
crime in this country, I can tell you that.
    Dr. Nakamura. There are a lot of social changes that are 
going on in our country and----
    Mr. Duncan. Wouldn't that also help explain why possibly 
that some of these other industrialized nations are not seeing 
nearly as much of this as we are, because they don't have as 
much of the breakdown of the family as we do?
    Dr. Nakamura. We don't know the answer to that. There are 
social changes that are going on with great rapidity in our 
country, and we are trying to figure out ways with which we 
might measure what effect these might have on subsequent 
behaviors. There is a proposal for a large-scale study of a 
birth cohort by the National Child Health Institute in which 
they would propose to look at 100,000 births following these 
children, understanding everything that they are consuming, 
their vaccinations, how the family is structured, etc., to see 
how those might relate ultimately to disease and other 
behavioral problems, as well as medical problems. So there are 
proposals to do that. This would be extremely expensive.
    Mr. Duncan. Thank you.
    Mr. Burton. Let me just followup. You said that you thought 
3 million children or thereabouts was on Ritalin or similar 
products?
    Dr. Nakamura. Yes.
    Mr. Burton. We've been told it's 6 million. Why is it you 
don't have some idea? Can't you find out from the drug company 
how many prescriptions are being written for that?
    Dr. Nakamura. Yes. We do--we are aware of how many 
prescriptions. Relating that to the number of individuals is a 
little trickier. I'm sure I could get you the information that 
we have for the record on what is the number that we are able 
to document.
    Mr. Burton. OK. Now, Novartis gave $748,000 plus $100,000 
last year to this organization called CHADD. You don't see 
anything wrong with that?
    Dr. Nakamura. Organizations which--many organizations 
receive money from companies, and I guess my feeling is that 
with much of it, as long as that's revealed, it is----
    Mr. Burton. It's OK, even though they're touting their own 
product? What about the $750,000 that the FDA gave to them for 
the same reason?
    You know, I hope, if one thing comes out of this, that 
you'll get information to all of the school boards in the 
country and the State school superintendents saying that there 
is a prescribed policy that should be followed before you put 
children on these drugs, not just some checklist that a teacher 
comes up with. That's very important.
    You think that needs to be done, but most people out there 
in the hinterlands don't know that.
    Now, my grandson--and we all talk about our personal 
experiences--he got nine shots in 1 day and got 47 times the 
amount of mercury that was tolerable in an adult, and 2 days 
later he became autistic. Like I told you earlier, we've gone 
from 1 in 10,000 to 1 in 250 kids, according to our health 
agencies, your health agencies, that have autism, they're 
autistic, so it is an absolute epidemic.
    I wanted to show you, since you weren't familiar with this, 
a tape we got from Canada on what happens when mercury is 
introduced into the neurons of the brain.
    Can you roll that tape real quick.
    [Videotape presentation.]

    Male Voice. How mercury causes brain neuron degeneration: 
mercury has long been known to be a potent neurotoxic 
substance, whether it is inhaled or consumed in the diet as a 
food contaminant. Over the past 15 years, medical research 
laboratories have established that dental amalgam tooth 
fillings are a major contributor to mercury body burden.
    In 1997, a team of research scientists demonstrated that 
mercury vapor inhalation by animals produced a molecular lesion 
in brain protein metabolism which was similar to a lesion seen 
in 80 percent of Alzheimer-diseased brains.
    Recently completed experiments by scientists at the 
University of Calgary's faculty of medicine now reveal, with 
direct visual evidence from brain neuron tissue cultures, how 
mercury ions actually alter the cell membrane structure of 
developing neurons.
    To better understand mercury's effect on the brain, let us 
first illustrate what brain neurons look like and how they 
grow. In this animation, we see three brain neurons growing in 
a tissue culture, each with a central cell body and numerous 
neurite processes. At the end of each neurite is a growth cone 
where structural proteins are assembled to form a cell 
membrane. Two principal proteins involved in growth cone 
function are actin, which is responsible for the pulsating 
motion seen here, and tubulin, a major structural component of 
the neurite membrane.
    During normal cell growth, tubulin molecules link together 
end to end to form micro-tubules, which surround neurofibros, 
another structural protein component of the neuronal axon.
    Shown here is the neurite of a live neuron isolated from 
snail brain tissue displaying linear growth due to growth cone 
activity. It is important to note that growth cones in all 
animal species, ranging from snails to humans, have identical 
structural and behavioral characteristics and use proteins of 
virtually identical composition.
    In this experiment, neurons also isolated from snail brain 
tissue were grown in culture for several days, after which very 
low concentrations of mercury were added to the culture medium 
for 20 minutes. Over the next 30 minutes the neurite membrane 
underwent rapid degeneration, leaving behind the denuded 
neurofibrils seen here.
    In contrast, other heavy metals added to this same 
concentration, such as aluminum, lead, cadmium, and manganese, 
did not produce this effect.
    To understand how mercury causes this degeneration, let us 
return to our illustration. As mentioned before, tubulin 
proteins link together during normal cell growth to form the 
micro-tubules which support the neurite structure. When mercury 
ions are introduced into the culture medium, they infiltrate 
the cell and bind themselves to newly synthesized tubulin 
molecules.
    More specifically, the mercury ions attach themselves to 
the binding site reserved for guanicine triphosphate, or GTP, 
on the beta sub-unit of the affected tubulin molecules. Since 
bound GTP normally provides the they which allows tubulin 
molecules to attach to one another, mercury ions bound to these 
sites prevent tubulin proteins from linking together. 
Consequently, the neurite's micro-tubules begin to disassemble 
into free-tubulin molecules, leaving the neurite stripped of 
its supporting structure.
    Ultimately, both the developing neurite and its growth cone 
collapse and some denuded neurofibrils form aggregates or 
tangles, as depicted here.
    Shown here is a neurite growth cone stained specifically 
for tubulin and actin before and after mercury exposure. Note 
that the mercury has caused disintegration of tubulin 
microtubule structure.
    These new findings reveal important visual evidence as to 
how mercury causes neurodegeneration. More importantly, the 
study provides the first direct evidence that low-level mercury 
exposure is, indeed, a precipitating factor that can initiate--
--

    [End of videotape presentation, stopped mid-sentence.]
    Mr. Burton. OK. Here's the point--and you're talking to a 
layman, not a scientist, but I can see, and we've looked at 
these things before, and I've had the finest minds around the 
world before this committee. Mercury causes a degeneration in 
the brain tissues. It's a contributing factor, according to 
many, many scientists, in Alzheimer's and autism and other 
neurological problems in children.
    Now, it doesn't take a rocket scientist to be able to see 
that we need to get that substance out of anything going into 
the body. You in health agencies took it out of mercurochrome. 
You took it out of topical dressings. The reason you did that 
was because you said it leaches into the skin and can cause 
neurological problems.
    Yet, you're still sticking it into our kids and we have an 
epidemic that has gone from 1 in 10,000 to 1 in 250 kids in 
this country, and we're going to have to take care of those 
people. It's going to be a nuclear bomb on our economy at some 
point in the future.
    Now, you're talking about today Ritalin and how we need 
Ritalin and how all these kids in schools and these young kids 
are having to get it because of the way they act. A lot of that 
may be caused by the introduction of mercury and other toxic 
substances into the body, so it seems to me logically that the 
first step you take in the health agencies is get mercury and 
these toxic substances out of our vaccines.
    We have not done that here in the United States, and 
really, much to my chagrin, in most of the vaccines we're 
exporting to Third World countries we're keeping it in there. 
We're not even trying to take it out, which means we're going 
to be causing these problems all around the world.
    Now, all I'd like to end up saying to you, from my 
perspective, is: let's get mercury out of all of these 
vaccines. Let's look at whether or not the amalgams, as was 
indicated--we all have fillings in our teeth, and these 
amalgams--and I've already had my mouth tested. I had five of 
these amalgams taken out. But I had a very high rate of mercury 
vapor when I chewed and everything that was getting out in my 
mouth, and that would leach into the brain. Maybe that's part 
of my problem. I don't know.
    But the point is: why don't we start, as our health 
agencies, to look at getting mercury out of any substance that 
goes into the human body or is in close proximity to it? And 
then, after we do that, we may not need to be giving these kids 
these mind-altering drugs, because many of them may not be 
adversely affected.
    Now, if you do that and you start informing our educational 
institutions of the criteria that should be used before you 
start giving these kids Ritalin, I think you'll solve a lot of 
these problems. And I also think our health agencies ought to 
take a hard look at whether or not pharmaceutical companies 
should have influence on the dispersion of these things and the 
usage of these things by using their money to create a wider 
body of users, which is what they're doing.
    I know that a lot of--there's a revolving door over at the 
health agencies where people go to the pharmaceutical 
companies, come over to health agencies, and go back, and we've 
looked at their financial disclosure forms and we've seen some 
things that were very curious there--people on Advisory 
Committees that have a vested interest in getting products 
passed into the mainstream of use here in this country.
    I'm not going to talk any more about this, but I hope that 
those of you from our health agencies who have heard what we 
had to say today, what I had to say, will take that message 
back, because it is going to be a broken record. It ain't going 
to go away as long as I am in Congress and as long as we have 
committees like this.
    I've talked enough. Do any of my colleagues have any more 
questions for this gentleman?
    Mrs. JoAnn Davis of Virginia. Just one quick question, Mr. 
Chairman.
    In your research, have you found any difference in--any 
discrepancies in boys versus girls with ADHD?
    Dr. Nakamura. There are differences in behavior, but they 
both respond to Ritalin.
    Mrs. JoAnn Davis of Virginia. I guess ``discrepancy'' is 
not the word I wanted. Do there seem to be more boys, more 
girls?
    Dr. Nakamura. Definitely more boys.
    Mrs. JoAnn Davis of Virginia. By a wide majority?
    Dr. Nakamura. Four to one.
    Mrs. JoAnn Davis of Virginia. Thank you.
    Mr. Burton. Mr. Gilman.
    Mr. Gilman. Just one question, Mr. Chairman.
    Doctor, would your NIH consider a long-term study, a study 
of the long-term effects of Ritalin? I don't think any study 
has been undertaken, from the testimony we've heard.
    Dr. Nakamura. Right. We have an ongoing study of Ritalin 
which is anticipated to be long term--that is, we will follow 
children for many years.
    Mr. Gilman. That's encouraging. Thank you very much. Thank 
you, Mr. Chairman.
    Mr. Burton. Mr. Horn, anything else?
    Mr. Horn. No. Just on the last point made by Mr. Gilman, 
have you got the National Academy of Science and Medicine? Are 
they doing it, or is it simply done within the NIH?
    Dr. Nakamura. It's being funded by the NIH. The National 
Academy of Science doesn't actually conduct studies, they 
review studies.
    Mr. Horn. Well, it might be worthwhile to get some people 
that are not completely involved within NIH and take a look. 
That's exactly what they're there for. We use them all the time 
here.
    Dr. Nakamura. OK.
    Mr. Burton. Thank you, Dr. Nakamura. We have some questions 
we'd like to submit for the record. If you'd consent to answer 
those and send them back to us, we'd appreciate it.
    Dr. Nakamura. Absolutely.
    Mr. Burton. OK. Thank you very much.
    Dr. Nakamura. Thank you.
    Mr. Burton. We have one more panel, and this last panel 
consists of: E. Clarke Ross, CEO of Children and Adults with 
Attention Deficit Hyperactivity Disorder; David Fassler, a 
doctor who is a representative of the American Psychiatric 
Association and American Academy of Child and Adolescent 
Psychiatry.
    Do you gentleman have an opening statement? Let me swear 
you in.
    Do you swear to tell the whole truth and nothing but the 
truth so help you God?
    Mr. Ross. Yes.
    Mr. Fassler. Yes.
    Mr. Burton. Do you want to start, Mr. Ross?
    Mr. Gilman. Mr. Chairman, if I might interrupt, I have to 
go to another meeting. Could I ask just one question of Mr. 
Ross before I have to leave?
    Mr. Burton. Sure.
    Mr. Gilman. Mr. Ross, isn't it true that CHADD received a 
grant award of $750,000 from the CDC to establish and operate 
the National Resource Center on ADHD?
    Mr. Ross. Yes. We were awarded a $750,000 grant from the 
Centers for Disease Control and Prevention to operate a 
National Resource Center on ADHD.
    Mr. Gilman. And have your membership been made aware that 
those funds came from a pharmaceutical company?
    Mr. ross. The money did not come from pharmaceutical 
companies. The CDC funds came from an appropriation of Congress 
administered by the Centers for Disease Control and Prevention.
    Mr. Burton. If the gentleman would yield----
    Mr. Gilman. I would be pleased to.
    Mr. Burton. If the gentleman would yield, you did get 
$748,000 from Novartis.
    Mr. Ross. Of our budget, 18 percent currently----
    Mr. Burton. No. You got that money?
    Mr. Ross. Over a 3-year period in the mid-1990's before I 
was there we did.
    Mr. Burton. Did you get $100,000 last year?
    Mr. Ross. We got $700,000 from the pharmaceutical industry 
in its entirety in the last year, which is 18 percent of our 
budget. I didn't bring a breakout of each company, but it is on 
our Web site, it is in our IRS returns, and I'm happy to 
provide it to the committee. But 18 percent of our budget is 
derived, like most every other voluntary health agencies in 
America, whether it's the Epilepsy Foundation, diabetes, 
cancer, heart, or the National Health Council, which is the 
umbrella group. We try to diversify our funding and we try to 
receive corporate funding as well as membership donations and 
Federal funds.
    Mr. Gilman. One last comment on that. The DEA stated that 
$748,000 to CHADD from 1991 to 1994 came from the manufacturer 
of Ritalin; is that correct?
    Mr. Ross. The then owner, which has subsequently become 
Novartis, gave CHADD roughly that amount of money in that 3-
year period. Yes.
    Mr. Gilman. Was that made known to your membership?
    Mr. Ross. Yes. It is on our Web site. You'll see who all 
our corporate donors are, how much they give, and the totality 
of our budget.
    Mr. Gilman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Burton. Proceed, Mr. Ross.

   STATEMENTS OF E. CLARKE ROSS, CHIEF EXECUTIVE OFFICER OF 
CHADD--CHILDREN AND ADULTS WITH ATTENTION DEFICIT/HYPERACTIVITY 
       DISORDER, LANDOVER, MD; AND DAVID FASSLER, M.D., 
REPRESENTATIVE, AMERICAN PSYCHIATRIC ASSOCIATION, AND AMERICAN 
   ACADEMY OF CHILD AND ADOLESCENT PSYCHIATRY, WASHINGTON, DC

    Mr. Ross. I'm here today to talk not only as the CEO of 
CHADD, but as the father of an 11-year-old son with inattentive 
type ADHD, anxiety disorder, and a variety of other challenges 
and learning disorders, and a boy who has a history of 
challenges. He had seizures, unprovoked seizures, when he was 
21 months old. At Johns Hopkins University at Kennedy Krieger 
we've had a complete blood metabolic workup when he was 3 or 4 
years old to try to determine things like mercury, lead, and 
other possible contributions to his challenges. Andrew has a 
series of developmental problems. Inattentive ADHD was not 
recognized until he was 4 in his first group learning 
situation, and teachers noticed that he was inattentive. He did 
not pay any attention to what was going on around him.
    So I'm here to speak as a parent of an 11-year-old son that 
we deal with daily with major challenges, and that experience, 
as well as the CEO of CHADD.
    What CHADD does--and I do have a written statement that I'd 
like to have in the record--what CHADD does is disseminate the 
science-based information, and that's why the Centers for 
Disease Control and Prevention have given us a grant to do 
that, and we rely on things like the U.S. Surgeon General 
Report on Mental Health and the ADHD, and Dr. Nakamura and 
NIMH, and the National Institutes of Health, and the 
professional societies like American Psychiatric Association, 
American Academy of Child and Adolescent Psychiatry, the 
American Academy of Pediatrics. That's what 20,000 family 
members of CHADD rely on the science, the Federal agencies and 
the professional community.
    The highest importance at the moment are guidelines that 
have been mentioned before. The American Academy of Pediatrics 
and the American Academy of Child and Adolescent Psychiatry 
have issued best practice treatment guidelines on how to assess 
and treat ADHD, and the recommendation of the Surgeon General, 
the recommendation of NIMH, and the recommendation of the two 
professional academies is what's called a multimodal treatment. 
It is not medication as a first entry, it is a multimodal 
treatment, which are behavioral interventions, counseling 
interventions, special education interventions, and, if needed, 
medication use. We've done all of that in our family with our 
son, Andrew.
    We have also tried a variety of other complementary or so-
called ``alternative interventions.'' None of them have done 
harm, but none of them have had any impact, and medication 
actually did have an impact on Andrew, our son.
    Andrew's life is filled with dedicated clinicians, from a 
pediatrician to a child psychiatrist to a child psychologist to 
a neurologist to a speech pathologist and to a team of 
educators. Without their collective support, I cannot imagine 
where Andrew would be today. Andrew is making steady progress. 
He is dealing with his anxiety. He is dealing with his 
inattentiveness. He's dealing with his learning challenges, but 
he has major challenges, and for those who want to dismiss the 
professional community, the 20,000 family members in CHADD rely 
on the psychiatrist and the pediatrician and the psychologist 
for their professional advice, and my wife and I rely on our 
clinical team and we appreciate our clinical team, and they've 
made a huge difference in Andrew's quality of life and his 
future.
    So we didn't fabricate disorders in Andrew. At age 11 
months he broke his ankle, and was put in a cast. When the cast 
came off we all--I've had a couple broken ankles in my life. 
When the cast comes off we all have pain and stiffness as we 
try to push that ankle down. Andrew's ankle never went down. 
Andrew's ankle stayed in the position of the cast. And so we 
went to Johns Hopkins University Medical Center. Andrew has 
some developmental challenges, and he happens to have 
inattentive type of ADHD.
    The multimodal treatment study of NIMH showed that 69 
percent of children with ADHD have co-occurring disorders, so 
this complicates the entire picture. Is it ADHD? Is it bipolar 
disorder? Is it anxiety disorder? Is it learning disabilities? 
Is it a reaction to allergies and mercury? These are very 
complex assessments to be made in a child, and the reason we at 
CHADD and the 20,000 members of CHADD advocate the pediatrician 
and child and adolescent psychiatry guidelines, which Dr. 
Fassler will talk about, is that they are a comprehensive 
assessment. It's not a 10-minute review and then medication.
    At age 4, when teachers told us Andrew was not paying 
attention in the class and was very distractible, we went to a 
psychiatrist. The psychiatrist recommended Ritalin. We were not 
prepared to do that at age 4 and we said, ``No, we're going to 
try other interventions,'' and we tried a whole host of other 
interventions.
    By age 7, with all these other interventions tried, Andrew 
was still inattentive, he was still easily distractible, and so 
we tried Ritalin, which actually didn't even work, and we tried 
Dexedrin, which also didn't work. Then we tried Adderall, and 
Adderall had an immediate impact on Andrew's ability to attend 
to his day, to use a checklist so he can organize his immediate 
day, whether it's getting ready for school, going to bed at 
night, or in school. Parents don't rush--some may, but 
parents--the 20,000 members of CHADD--don't rush in and say, 
``Give us medication. We just want medication.'' Their children 
have functional challenges in their child in their daily life 
and they want help and they rely on the professional community 
and they rely on the science.
    In our case, we took 3 years of reluctance to medicate, but 
when we medicated we had this immediate impact that was 
positive.
    So the question is: should we have medicated at age 4 or 
should we have waited until age 7? That's every family's 
individual decision in consultation with their doctor. We 
waited, and that was our decision, and Andrew had a lot of 
problems from age 4 to 7 but that's hindsight. Every family has 
to figure that out.
    The statistics show that stimulant medication works in 25 
to 90 percent of children, so if you reverse that it doesn't 
work in 10 to 25 percent of children and there are going to be 
side effects, and you have to seriously think about that and 
know that. Ms. Weathers' point about informed consent is basic 
to a family. We need to know what the positive attributes of an 
intervention are, including medication, and we need to know the 
possible side effects, and communicate not every 4 months with 
your doctor, but communicate a couple times a month with the 
doctor on dose level, side effects. And we have that 
relationship in our family with our clinical team.
    Mr. Burton. Mr. Ross, would it be possible for you to sum 
up so we can get on with the questions?
    Mr. Ross. Yes.
    Mr. Burton. I know you have a lot that you want to tell us 
about, and we'll be glad to get to that.
    Mr. Ross. I've made all the major points I want to make--
the importance of the science, the importance of a clinical 
team, the
importance of comprehensiveness, the importance of the 
pediatricians and child and adolescent psychiatry guidelines 
and how complex this is, because many of the children have co-
occurring disorders. So I'll rest.
    Mr. Burton. Thank you, Mr. Ross.
    [The prepared statement of Mr. Ross follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.037
    
    [GRAPHIC] [TIFF OMITTED] 83516.038
    
    [GRAPHIC] [TIFF OMITTED] 83516.039
    
    [GRAPHIC] [TIFF OMITTED] 83516.040
    
    [GRAPHIC] [TIFF OMITTED] 83516.041
    
    [GRAPHIC] [TIFF OMITTED] 83516.042
    
    [GRAPHIC] [TIFF OMITTED] 83516.043
    
    [GRAPHIC] [TIFF OMITTED] 83516.044
    
    [GRAPHIC] [TIFF OMITTED] 83516.045
    
    [GRAPHIC] [TIFF OMITTED] 83516.046
    
    [GRAPHIC] [TIFF OMITTED] 83516.047
    
    [GRAPHIC] [TIFF OMITTED] 83516.048
    
    [GRAPHIC] [TIFF OMITTED] 83516.049
    
    [GRAPHIC] [TIFF OMITTED] 83516.050
    
    [GRAPHIC] [TIFF OMITTED] 83516.051
    
    Mr. Burton. Dr. Fassler.
    Dr. Fassler. Thank you.
    My name is David Fassler. I'm a Board-certified child and 
adolescent psychiatrist practicing in Burlington, Vermont. I'm 
a clinical associate professor in the Department of Psychiatry 
at the University of Vermont College of Medicine. I currently 
serve as the president of the Vermont Association of Child and 
Adolescent Psychiatry. I'm also a trustee of the American 
Psychiatric Association and a member of the Governing Council 
of the American Academy of Child and Adolescent Psychiatry.
    First of all, let me thank Representative Burton and the 
committee for the opportunity to appear here today. My 
testimony is on behalf of the APA and the Academy, and I'd 
appreciate if my written remarks are entered into the record.
    The American Psychiatric Association is a medical specialty 
society representing over 38,000 psychiatric physicians. The 
American Academy of Child and Adolescent Psychiatry is a 
national professional association representing over 65,000 
child and adolescent psychiatrists who are physicians with at 
least 5 years of specialized training after medical school 
emphasizing the diagnosis and treatment of mental illness in 
children and adolescents.
    I'm happy to be able to talk to you about the diagnosis and 
treatment of attention deficit hyperactivity disorder, or ADHD, 
and to underscore some of the comments that you've already 
heard.
    As a psychiatrist, when I think of ADHD, I think first of 
the faces of children and families who I've seen over the 
years. I think, in particular, of a 7-year-old boy who was 
about to be left back in second grade due to his disruptive 
behavior. The teachers have labeled him ``difficult to 
control.'' The other kids just call him weird. He has few 
friends and he's already convinced that he's bad and different. 
And I think of a 12-year-old girl with an IQ of 130. She's not 
disruptive, but she's failing seventh grade. And I think of a 
28-year-old administrative assistant who was relieved and 
appreciative when he received an accurate diagnosis and 
appropriate treatment for his longstanding condition. But I 
also remember his anger and frustration because, in his words, 
he missed out on 20 years of his life.
    As you've already heard, according to NIMH, the National 
Institute of Mental Health, attention deficit hyperactivity 
disorder, or ADHD, is the most commonly diagnosed psychiatric 
disorder of childhood. It's estimated to affect approximately 5 
percent of school-aged children, although published studies 
have identified a prevalence rate as high as 12 percent in some 
populations. As you've heard, it occurs between three and four 
times more often in boys than in girls.
    We also know that ADHD does run in families and, contrary 
to previous beliefs, it doesn't always go away as you grow up. 
In fact, the latest research indicates that as many as half of 
all kids with ADHD continue to have problems into adulthood. 
This is actually one of the reasons we see an increase in the 
overall use of medication. We are now recognizing and treating 
more adults with ADHD.
    I've brought for the committee the Diagnostic and Statistic 
Manual of Mental Disorders, the DSM-IV, which you've heard 
discussed today and which is central to our understanding of a 
formal diagnosis of ADHD.
    The key features, as has been explained, include 
inattention, hyperactivity, and impulsivity. I want to 
underscore one of the other elements that Dr. Nakamura spoke 
about, and that's that the symptoms must be interfering in the 
child's life at home, at school, or at work, or at work for an 
adult, or with their friends, with their peers, in two of those 
settings. So it's not just that you're agitated or you're 
active, but that it is really interfering with your life, with 
your ability to function in those settings.
    The diagnostic criteria are quite specific and they are 
well established within the field. They are the product of 
extensive and numerous research studies conducted at academic 
centers and clinical facilities throughout the country. I've 
brought a number of the studies which have already been 
mentioned from the AMA, the Academy, Academy of Pediatrics, and 
the Surgeon General's report.
    In addition, we now have a substantial body of research 
literature about both the genetic markers and the 
neuroanatomical abnormalities associated with this disorder, 
and you started to hear about some of it, some of the MRI, the 
CAT scan, the PET scan studies, and I think within the next 
year or two we will even be able to use some of these in a more 
diagnostic way.
    Let me be very clear. ADHD is not an easy diagnosis to make 
and it's not a diagnosis that can be made in a 5 or a 10 or a 
15-minute office visit. Many other problems, including hearing 
and vision problems, anxiety disorders, depression, learning 
disabilities, toxicity with heavy metals, can all present with 
signs and symptoms which look similar to ADHD. There's also a 
high degree of comorbidity, meaning that over half of the kids 
who have ADHD also have a second psychiatric problem.
    As we heard this morning, the diagnosis of ADHD really 
requires a comprehensive assessment by a trained clinician. I 
don't think any of us you've heard today would disagree with 
that.
    In addition to direct observation, the evaluation includes 
a review of the child's developmental, social, academic 
history, medical history, including evaluating the child for 
other medical conditions, including things like 
hyperthyroidism, the toxicities. We really need to rule those 
things out. It also should include input from the child's 
parents and teachers and a review of the child's records.
    Schools play a critical role in identifying kids who are 
having problems, but, as you've heard already today, schools 
should not be making diagnoses and they should not be dictating 
treatment.
    ADHD is also a condition which should not be taken lightly. 
Without proper treatment, a child with ADHD may fall behind in 
school work, may have problems at home and with friends. It can 
have long-term effects on the child's self esteem. It can lead 
to other problems in adolescence, including an increased risk 
of substance abuse that you've heard about, increased risk of 
adolescent pregnancy, increased risk of accidents including car 
accidents in adolescence, school failure, and an increased risk 
of trouble with the law.
    The treatment of ADHD should be comprehensive and 
individualized to the needs of the child and the family. 
Medication, including methylphenidate or Ritalin, can be 
extremely helpful to many children, but, consistent with the 
opening comments from Mrs. Davis, medication alone is rarely 
the appropriate treatment for complex child psychiatric 
disorders such as ADHD. Medication should only be used as part 
of a comprehensive treatment plan, which will usually include 
individual therapy, family support and counseling, and work 
with the schools.
    In terms of methylphenidate, we have literally hundreds of 
studies over 30 years clearly demonstrating the effectiveness 
of this medication on many of the target symptoms of ADHD. As 
you've also heard, it is generally well tolerated by children 
with minimal side effects. Nonetheless, I share the concern 
that some children may be placed on medication without a 
comprehensive evaluation, an accurate and specific diagnosis, 
or an individualized treatment plan.
    Let me also be very clear that I am similarly concerned 
about the many children with ADHD and other psychiatric 
disorders who would benefit from treatment, including treatment 
with medication, if appropriate, but who go unrecognized and 
undiagnosed and who are not receiving the help that they need.
    Let me turn specifically to the question of over-diagnosis 
and over-treatment.
    Just last week, a review article written by Peter Jenson 
was published which addressed this issue in detail. I have 
included Dr. Jenson's article in the background materials. Dr. 
Jenson is currently at Columbia University. He was formerly the 
associate director for child and adolescent research at the 
National Institute of Mental Health. He reviews all of the 
available scientific studies on this issue. He notes that most 
studies and media reports have not been based on actual 
diagnostic data, where people actually sat and interviewed 
children and reviewed records, but they've relied, instead, on 
information from an HMO or Medicaid medication data base.
    Dr. Jenson and his colleagues actually performed 
comparative evaluations on 1,285 children in four communities--
Atlanta; New Haven; Westchester; and San Juan, Puerto Rico--to 
determine the prevalence of ADHD, as well as the forms of 
treatment utilized. The results were that 5.1 percent of 
children and adolescents between the ages of 9 and 17 met the 
diagnostic criteria for ADHD, yet only 12.1 percent of these 
children, or approximately 1 in 8, were being treated with 
medication. So the majority of children with ADHD in this 
carefully controlled study were not being treated with 
medication, suggesting that, at least in these communities, 
medication is currently under-prescribed.
    These authors also found 8 children out of these 1,285 who 
were receiving medication who did not meet the full diagnostic 
criteria for ADHD, although they did have high levels of ADHD 
symptoms.
    Dr. Jenson concludes--and I would concur--that on the basis 
of these results there is no evidence of widespread over-
treatment with medication. On the contrary, it appears that, at 
least in these communities, the majority of children with ADHD 
are not receiving what we would consider to be appropriate and 
effective treatment.
    There's a second study from the Mayo Clinic in Rochester, 
Minnesota, which is in the background materials. In the 
interest of time, I will skip the details, other than to 
mention that in that study of all children on medication for 
ADHD, only 0.2 percent, which is 2 children in 1,000, had no 
evidence of the disorder whatsoever. So, again, the second 
study, carefully conducted study, simply doesn't support the 
argument that ADHD is generally over-diagnosed or over-treated.
    This is not to say that over-diagnosis or over-treatment 
doesn't happen in any areas or any communities, which is why we 
all need to continue our collective efforts to improve public 
awareness and to ensure access to comprehensive assessment 
services and individualized treatment using the kinds of 
evidence-based guidelines which you have been hearing about and 
which have now been developed.
    Mr. Burton. Dr. Fassler, can you summarize? We have some 
votes on the floor.
    Dr. Fassler. I am summarizing with my recommendations.
    The APA and the Academy would offer the following specific 
recommendations for your consideration.
    First, we fully support and would underscore the importance 
of accurate diagnosis and treatment which requires access to 
clinicians with appropriate training and expertise and 
sufficient time to permit a comprehensive assessment.
    Next, we fully support the increased emphasis of the FDA 
and the NIMH on research on the appropriate use of medication 
in the psychiatric treatment of children and adolescents, and 
we welcome the expanded clinical trials and the longitudinal 
studies which you have been hearing about.
    We also fully support the passage of comprehensive parity 
legislation at both the State and the Federal level.
    We fully support and welcome all efforts to sustain and 
expand training programs for all child mental health 
professionals, including programs for child and adolescent 
psychiatrists.
    And, finally, we fully support and appreciate the efforts 
of the current Administration, through the New Freedom 
Commission on Mental Health, to focus increased attention on 
the diagnosis and treatment of all psychiatric conditions, 
including those which affect children and adolescents.
    In summary, let me emphasize that child psychiatric 
disorders, including ADHD, are very real and diagnosable 
illnesses which affect lots of kids. The good news is that they 
are also highly treatable. We can't cure all the kids we see, 
but with comprehensive, individualized intervention we can 
significantly reduce the extent to which their conditions 
interfere with their lives.
    The key for parents and teachers is to identify kids with 
problems as early as possible and to make sure that they get 
the help that they need.
    Thank you.
    Mr. Burton. Thank you, Doctor.
    [The prepared statement of Dr. Fassler follows:]
    [GRAPHIC] [TIFF OMITTED] 83516.052
    
    [GRAPHIC] [TIFF OMITTED] 83516.053
    
    [GRAPHIC] [TIFF OMITTED] 83516.054
    
    [GRAPHIC] [TIFF OMITTED] 83516.055
    
    [GRAPHIC] [TIFF OMITTED] 83516.056
    
    [GRAPHIC] [TIFF OMITTED] 83516.057
    
    [GRAPHIC] [TIFF OMITTED] 83516.058
    
    [GRAPHIC] [TIFF OMITTED] 83516.059
    
    [GRAPHIC] [TIFF OMITTED] 83516.060
    
    [GRAPHIC] [TIFF OMITTED] 83516.061
    
    [GRAPHIC] [TIFF OMITTED] 83516.062
    
    [GRAPHIC] [TIFF OMITTED] 83516.063
    
    [GRAPHIC] [TIFF OMITTED] 83516.064
    
    [GRAPHIC] [TIFF OMITTED] 83516.065
    
    [GRAPHIC] [TIFF OMITTED] 83516.066
    
    [GRAPHIC] [TIFF OMITTED] 83516.067
    
    [GRAPHIC] [TIFF OMITTED] 83516.068
    
    Mr. Burton. I'd like to ask you a whole bunch of questions, 
but, unfortunately, we've got two votes on the floor, and 
you've been here all day. I don't want to keep you all any 
longer than we have to.
    We have 6 million children that are using these drugs right 
now. I don't know how we got through all this when I was 
younger, but we did, and the society did fairly well.
    Did you find any mercury in your son's blood work?
    Mr. Ross. No. We were hoping to find some toxic element so 
that we could have a simple explanation for the fact that he 
was having seizures and that he had hypertonia and a lot of 
problems.
    Mr. Burton. OK. But you----
    Mr. Ross. No, we did not find.
    Mr. Burton [continuing]. Found no mercury?
    Mr. Ross. No.
    Mr. Burton. Had he had all of his childhood vaccines?
    Mr. Ross. Yes. We contracted with our pediatrician 2 months 
before we delivered Andrew, and he has had the same 
pediatrician and----
    Mr. Burton. So he had all of his childhood vaccinations?
    Mr. Ross. He had all of his childhood vaccinations. Now, he 
was tested when he was 3 or 4, and he's had subsequent 
vaccinations.
    Mr. Burton. Well, but the thing is, I wonder if you could 
contact your pediatrician and find out the lot numbers of those 
vaccinations. I am just curious. I would just like to see 
those, because mercury has been in these childhood vaccinations 
for 30, 40 years, and if he got a number of these vaccinations, 
as my grandson did, it's hard for me to believe that he didn't 
get some mercury injected into him.
    Mr. Ross. Well, what the doctor would have told me is not 
there wasn't some; he would have told me if it was abnormal. We 
were told there was not abnormal levels of mercury, lead, and a 
whole bunch of things. So I don't know. I don't know. I didn't 
see the actual test results and I'm not a physician.
    Mr. Burton. I think most parents who have had these shots 
given to their children and who have autistic children would 
really argue with what is an acceptable level of mercury in the 
body. That's a subjective thing, and it may vary from person to 
person, so that's something that I'm sure would be debated.
    You agree, Dr. Fassler, that there ought to be a thorough 
analysis of a child before they go on medication?
    Dr. Fassler. Yes. My bottom line would be that kids need a 
comprehensive evaluation before there is any treatment plan in 
place, and that parents need to be advocates for kids to try to 
make sure that----
    Mr. Burton. I don't think anybody disagrees with that.
    Dr. Fassler. Right.
    Mr. Burton. And your organization also agrees with that?
    Mr. Ross. Yes. Every child should have a complete and----
    Mr. Burton. Well, why is it then----
    Mr. Ross [continuing]. Comprehensive assessment.
    Mr. Burton. Why is it then that around the country we have 
school corporations that have this checklist where a teacher 
checks off the problems with the child, the child is taken to a 
doctor, and it is a perfunctory thing for the doctor to say, 
``Well, it appears as though he needs Ritalin,'' and they write 
out a prescription for that. That's not a thorough examination.
    Dr. Fassler. And that's not something that I think either 
of us or any of us who you've heard would support. There are 
checklists where teachers report what they're seeing in the 
classroom, but there shouldn't be a diagnosis made just on the 
basis of reviewing that checklist.
    Mr. Burton. My grandson never had a complete psychological 
analysis. He became autistic, as I said, right after getting 
all these shots. And yet the school recommended, because he was 
difficult--he was in a special ed class--that he should be put 
on Ritalin, and they had a doctor also subscribe to that. Of 
course, he wasn't put on Ritalin. We didn't allow that, and he 
seems to be doing all right on other ways that we're dealing 
with him. But the fact of the matter is, in my own personal 
experience that was the case--recommendation by the teacher and 
the doctor went along with that.
    How do we educate our educators around the country to 
understand that this has to be something that's done in a very 
thorough manner before you start putting these kids on these 
drugs?
    Dr. Fassler. I think it is an excellent point and I think 
collectively we need to work on getting that message to the 
schools, and part of it is our job going into the schools, 
teaching teachers about the kinds of things to look for and 
when kids should be referred.
    I think we need to do a better job at recognizing the signs 
and symptoms earlier and getting help for kids before they have 
major problems, because often we all wait too late, and we may 
see things in adolescence that we may have been able to help 
earlier in life.
    Mr. Burton. Let me just say that I hope you and CHADD and 
our health agencies will figure out some way--I don't know how 
much time is left--will figure out a way to make sure that 
every school corporation, every superintendent of public 
instruction in all 50 States understands that there should be a 
thorough analysis before they put these kids on these drugs.
    Dr. Fassler. I don't think----
    Mr. Burton. If you would do that, I think you would 
eliminate a lot of the problems.
    The other thing is I hope you'll all agree that we 
shouldn't be introducing mercury or other toxic substances into 
people's bodies, whether they're kids or adults. If we could 
get that point across, we might solve a lot of these problems.
    I have a lot of questions I'd like to submit to you for the 
record, Dr. Fassler and Mr. Ross.
    I would also like to end by saying, Mr. Ross, I do--we had 
what was called the ``Keating Five'' here in Washington. We had 
five Senators that met with Mr. Keating on the savings and loan 
crisis, and I don't believe any of those Senators really 
intentionally did anything wrong, but the appearance of 
impropriety was very great and they got a heck of a lot of bad 
publicity when the savings and loan debacle took place. And for 
you to get hundreds of thousands of dollars from Novartis, 
which manufactures Ritalin, and your organization does advocate 
that children should use that, it gives the appearance----
    Mr. Ross. We do not advocate any brand drug.
    Mr. Burton. Well, I----
    Mr. Ross. We advocate a multimodal treatment which may 
include medication----
    Mr. Burton. I understand.
    Mr. Ross [continuing]. And the products are never 
discussed.
    Mr. Burton. Regardless--I understand, but the appearance is 
that they're feeding you to deal with this problem in that way, 
and I would just suggest, if there was a better way to fund 
your organization, even if it is only 18 percent, it would be 
helpful, because if you were in the U.S. Senator or the House 
and that happened, you would have a heck of a problem.
    With that, let me just say to you I really appreciate your 
being here. We will submit questions for the record and we 
would appreciate your response.
    Thank you.
    Mr. Ross. Thank you.
    Dr. Fassler. Thank you very much.
    Mr. Burton. We are adjourned.
    [Whereupon, at 2:26 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Constance A. Morella, Hon. 
Dennis J. Kucinich, Hon. Marge Roukema, and additional 
information submitted for the hearing record follows:]
[GRAPHIC] [TIFF OMITTED] 83516.069

[GRAPHIC] [TIFF OMITTED] 83516.070

[GRAPHIC] [TIFF OMITTED] 83516.071

[GRAPHIC] [TIFF OMITTED] 83516.072

[GRAPHIC] [TIFF OMITTED] 83516.073

[GRAPHIC] [TIFF OMITTED] 83516.074

[GRAPHIC] [TIFF OMITTED] 83516.075

[GRAPHIC] [TIFF OMITTED] 83516.076

[GRAPHIC] [TIFF OMITTED] 83516.077

[GRAPHIC] [TIFF OMITTED] 83516.078

[GRAPHIC] [TIFF OMITTED] 83516.079

[GRAPHIC] [TIFF OMITTED] 83516.080

[GRAPHIC] [TIFF OMITTED] 83516.081

[GRAPHIC] [TIFF OMITTED] 83516.082

[GRAPHIC] [TIFF OMITTED] 83516.083

[GRAPHIC] [TIFF OMITTED] 83516.084

[GRAPHIC] [TIFF OMITTED] 83516.085

[GRAPHIC] [TIFF OMITTED] 83516.086

[GRAPHIC] [TIFF OMITTED] 83516.087

[GRAPHIC] [TIFF OMITTED] 83516.088

[GRAPHIC] [TIFF OMITTED] 83516.089

[GRAPHIC] [TIFF OMITTED] 83516.090

[GRAPHIC] [TIFF OMITTED] 83516.091

[GRAPHIC] [TIFF OMITTED] 83516.092

[GRAPHIC] [TIFF OMITTED] 83516.093

[GRAPHIC] [TIFF OMITTED] 83516.094

[GRAPHIC] [TIFF OMITTED] 83516.095

[GRAPHIC] [TIFF OMITTED] 83516.096

[GRAPHIC] [TIFF OMITTED] 83516.097

[GRAPHIC] [TIFF OMITTED] 83516.098

[GRAPHIC] [TIFF OMITTED] 83516.099

[GRAPHIC] [TIFF OMITTED] 83516.100

[GRAPHIC] [TIFF OMITTED] 83516.101

[GRAPHIC] [TIFF OMITTED] 83516.102

[GRAPHIC] [TIFF OMITTED] 83516.103

[GRAPHIC] [TIFF OMITTED] 83516.104

[GRAPHIC] [TIFF OMITTED] 83516.105

[GRAPHIC] [TIFF OMITTED] 83516.106

[GRAPHIC] [TIFF OMITTED] 83516.107

[GRAPHIC] [TIFF OMITTED] 83516.108

[GRAPHIC] [TIFF OMITTED] 83516.109

[GRAPHIC] [TIFF OMITTED] 83516.110

[GRAPHIC] [TIFF OMITTED] 83516.111

[GRAPHIC] [TIFF OMITTED] 83516.112

[GRAPHIC] [TIFF OMITTED] 83516.113

[GRAPHIC] [TIFF OMITTED] 83516.114

[GRAPHIC] [TIFF OMITTED] 83516.115

[GRAPHIC] [TIFF OMITTED] 83516.116

[GRAPHIC] [TIFF OMITTED] 83516.117

[GRAPHIC] [TIFF OMITTED] 83516.118

[GRAPHIC] [TIFF OMITTED] 83516.119

[GRAPHIC] [TIFF OMITTED] 83516.120

[GRAPHIC] [TIFF OMITTED] 83516.121

[GRAPHIC] [TIFF OMITTED] 83516.122

[GRAPHIC] [TIFF OMITTED] 83516.123

[GRAPHIC] [TIFF OMITTED] 83516.124

[GRAPHIC] [TIFF OMITTED] 83516.125

[GRAPHIC] [TIFF OMITTED] 83516.126

[GRAPHIC] [TIFF OMITTED] 83516.127

[GRAPHIC] [TIFF OMITTED] 83516.128

[GRAPHIC] [TIFF OMITTED] 83516.129

[GRAPHIC] [TIFF OMITTED] 83516.130

[GRAPHIC] [TIFF OMITTED] 83516.131

[GRAPHIC] [TIFF OMITTED] 83516.132

[GRAPHIC] [TIFF OMITTED] 83516.133

[GRAPHIC] [TIFF OMITTED] 83516.134

[GRAPHIC] [TIFF OMITTED] 83516.135

[GRAPHIC] [TIFF OMITTED] 83516.136

[GRAPHIC] [TIFF OMITTED] 83516.137

[GRAPHIC] [TIFF OMITTED] 83516.138

[GRAPHIC] [TIFF OMITTED] 83516.139

[GRAPHIC] [TIFF OMITTED] 83516.140

[GRAPHIC] [TIFF OMITTED] 83516.141

[GRAPHIC] [TIFF OMITTED] 83516.142

[GRAPHIC] [TIFF OMITTED] 83516.143

[GRAPHIC] [TIFF OMITTED] 83516.144

[GRAPHIC] [TIFF OMITTED] 83516.145

[GRAPHIC] [TIFF OMITTED] 83516.146

[GRAPHIC] [TIFF OMITTED] 83516.147

[GRAPHIC] [TIFF OMITTED] 83516.148

[GRAPHIC] [TIFF OMITTED] 83516.149

[GRAPHIC] [TIFF OMITTED] 83516.150

[GRAPHIC] [TIFF OMITTED] 83516.151

[GRAPHIC] [TIFF OMITTED] 83516.152

[GRAPHIC] [TIFF OMITTED] 83516.153

[GRAPHIC] [TIFF OMITTED] 83516.154

[GRAPHIC] [TIFF OMITTED] 83516.155

[GRAPHIC] [TIFF OMITTED] 83516.156

[GRAPHIC] [TIFF OMITTED] 83516.157

[GRAPHIC] [TIFF OMITTED] 83516.158

[GRAPHIC] [TIFF OMITTED] 83516.159

[GRAPHIC] [TIFF OMITTED] 83516.160

[GRAPHIC] [TIFF OMITTED] 83516.161

[GRAPHIC] [TIFF OMITTED] 83516.162

[GRAPHIC] [TIFF OMITTED] 83516.163

[GRAPHIC] [TIFF OMITTED] 83516.164

[GRAPHIC] [TIFF OMITTED] 83516.165

[GRAPHIC] [TIFF OMITTED] 83516.166

[GRAPHIC] [TIFF OMITTED] 83516.167

[GRAPHIC] [TIFF OMITTED] 83516.168

[GRAPHIC] [TIFF OMITTED] 83516.169

[GRAPHIC] [TIFF OMITTED] 83516.170

[GRAPHIC] [TIFF OMITTED] 83516.171

[GRAPHIC] [TIFF OMITTED] 83516.172

[GRAPHIC] [TIFF OMITTED] 83516.173

[GRAPHIC] [TIFF OMITTED] 83516.174

[GRAPHIC] [TIFF OMITTED] 83516.175

[GRAPHIC] [TIFF OMITTED] 83516.176

[GRAPHIC] [TIFF OMITTED] 83516.177

[GRAPHIC] [TIFF OMITTED] 83516.178

[GRAPHIC] [TIFF OMITTED] 83516.179

[GRAPHIC] [TIFF OMITTED] 83516.180

[GRAPHIC] [TIFF OMITTED] 83516.181

[GRAPHIC] [TIFF OMITTED] 83516.182

[GRAPHIC] [TIFF OMITTED] 83516.183

[GRAPHIC] [TIFF OMITTED] 83516.184

[GRAPHIC] [TIFF OMITTED] 83516.185

[GRAPHIC] [TIFF OMITTED] 83516.186

[GRAPHIC] [TIFF OMITTED] 83516.187

[GRAPHIC] [TIFF OMITTED] 83516.188

[GRAPHIC] [TIFF OMITTED] 83516.189

[GRAPHIC] [TIFF OMITTED] 83516.190

[GRAPHIC] [TIFF OMITTED] 83516.191

[GRAPHIC] [TIFF OMITTED] 83516.192

[GRAPHIC] [TIFF OMITTED] 83516.193

[GRAPHIC] [TIFF OMITTED] 83516.194

[GRAPHIC] [TIFF OMITTED] 83516.195

[GRAPHIC] [TIFF OMITTED] 83516.196

[GRAPHIC] [TIFF OMITTED] 83516.197

[GRAPHIC] [TIFF OMITTED] 83516.198

[GRAPHIC] [TIFF OMITTED] 83516.199

[GRAPHIC] [TIFF OMITTED] 83516.200

[GRAPHIC] [TIFF OMITTED] 83516.201

[GRAPHIC] [TIFF OMITTED] 83516.202

[GRAPHIC] [TIFF OMITTED] 83516.203

[GRAPHIC] [TIFF OMITTED] 83516.204

[GRAPHIC] [TIFF OMITTED] 83516.205

[GRAPHIC] [TIFF OMITTED] 83516.206

[GRAPHIC] [TIFF OMITTED] 83516.207

[GRAPHIC] [TIFF OMITTED] 83516.208

[GRAPHIC] [TIFF OMITTED] 83516.209

[GRAPHIC] [TIFF OMITTED] 83516.210

[GRAPHIC] [TIFF OMITTED] 83516.211

[GRAPHIC] [TIFF OMITTED] 83516.212

[GRAPHIC] [TIFF OMITTED] 83516.213

[GRAPHIC] [TIFF OMITTED] 83516.214

[GRAPHIC] [TIFF OMITTED] 83516.215

[GRAPHIC] [TIFF OMITTED] 83516.216

[GRAPHIC] [TIFF OMITTED] 83516.217

[GRAPHIC] [TIFF OMITTED] 83516.218

[GRAPHIC] [TIFF OMITTED] 83516.219

                                   - 

</pre></body></html>
